                       The Office of Inspector General promotes the economy, efficiency, and
                       effectiveness of FDIC programs and operations and protects against
                       fraud, waste, and abuse to assist and augment the FDIC’s contribution
                       to the stability of and public confidence in the nation’s financial system.
                       We accomplish our mission by conducting independent audits, investi-
                       gations, and evaluations and by keeping the Chairman and the Congress
                       fully and currently informed of our work.




By conducting independent
audits, investigations, and
evaluations, we act as                 OIG audits and evalu-    OIG investigations will      OIG professional      The OIG will commu-
agents of positive change,              ations will add value        add value to the      advice assists in the   nicate effectively with
striving for continuous                 to the Corporation’s        Corporation’s pro-       development and         the Chairman, the
improvement in and                     programs and opera-      grams and operations          improvement of        Congress, and other
                                               tions by             by identifying and      corporate systems,         stakeholders.
protection of FDIC                                                     investigating            policies, and
programs, operations, and              detecting and guard-
                                                                   instances of fraud,           legislation.
management. We are                       ing against fraud,     waste, and abuse and
                                       waste, and abuse and     other conduct leading
committed to the Congress
                                       by promoting econo-       to criminal, civil, and
and the American public to               my, efficiency, and    administrative penal-
promote good government                     effectiveness.        ties and recoveries.
and to create an environ-
ment where our employees
have an opportunity to
learn, excel, and be proud
of their work.

                                       Value Attributes          Value Attributes          FDIC management is      • Inform stakeholders
                                       • Client Satisfaction     • Client Satisfaction     made aware of issues       of OIG’s role and
                                       • Timeliness              • Timeliness               relating to emerging      mission
                                       • Quality                 • Quality                       issues, new       • Respond to stake-
                                       • Productivity            • Productivity                 systems, and          holder inquiries and
                                       • Impact                  • Results                 proposed and existing      requests
                                                                                                   policies,
                                                                                                                   • Work with PCIE,
                                                                                                 regulations,
                                                                                                                      other OIGs, and
                                                                                               legislation, and
                                                                                                                      other government
                                                                                                  programs.
                                                                                                                      agencies
Semiannual Report to the Congress
    October 1, 2000 – March 31, 2001
                                                                Inspector General’s Statement


                                                          I   t has been 5 years since I assumed
                                                     the role of Inspector General at the
                                                                                                    and operations; and benefited more and
                                                                                                    more each year from the new
                                                     Federal Deposit Insurance Corporation          technological work tools at our disposal as
                                                     (FDIC) – a milestone that provides an          we conduct our audits, evaluations,
                                                     opportunity to reflect on events of the        investigations, and internal operations.
                                                     past and look to the future as the Office of
                                                     Inspector General (OIG) continues to                     Another major endeavor of our
                                                     chart its course.                              office over these years has been to foster
                                                                                                    strong working relationships with
                                                               What strikes me most are the         corporate management, all of our
                                                     changes we have experienced both as the        colleagues in the Corporation, and
                                                     OIG and as a part of the FDIC. With            members of the Congress. I am pleased
                                                     respect to the OIG, upon the Resolution        with our efforts in that regard and equally
                                                     Trust Corporation’s (RTC) merger with          proud of our office’s strong support of the
                                                     the FDIC, our organization was faced with      Corporation’s diversity initiatives and the
                                                     blending two very distinct corporate           genuine appreciation for the value of
                                                     cultures, practices, and staffs. And though    human capital that we have developed
                                                     not without challenges along the way, we       along the way.

                                                                                                              But change is constant – it drives
                                                                                                    the federal government, the banking
       FDIC OIG 5-Year Accomplishments                                                              industry, and our workplace, and we
        Over the past 5 years, the FDIC OIG has issued approximately 650 audit and                  cannot and will not relent in our efforts to
    evaluation reports or related products. These reports have questioned more than $134            keep pace with it. There is much more to
    million and identified more than $16.9 million as funds that could be put to better use.        accomplish. A new administration has
    Audits and evaluations have led to nearly 700 nonmonetary recommendations for                   taken office and seeks to carry out a
    improved controls, enhanced policies and procedures, and operational efficiencies.              different agenda. The passage of the
    Investigative fines, restitution, and monetary recoveries total more than $157 million          Gramm-Leach-Bliley Act in November
    for the same period. The OIG has also reported approximately 160 indictments and                1999 is revolutionizing the nature of
    criminal charges and 125 convictions as a result of its work. The OIG’s perspectives            banking services. FDIC Chairman Donna
    have been offered on a number of corporate programs by way of policy reviews,                   Tanoue has proposed a number of major
    participation on corporate task groups, presentations at meetings and conferences,              deposit insurance reforms that have
    and frequent communication with corporate management and staff. We are proud of                 engendered great debate and could further
    our past accomplishments and committed to such efforts going forward.                           alter the industry. Downsizing has and will
                                                                                                    continue to dramatically transform the
                                                                                                    workforce of the FDIC. Significant changes
                                                                                                    in leadership at all levels of the
                                                     have all learned and grown tremendously,       Corporation have occurred and more are
                                                     both personally and professionally, over       in store. Chairman Tanoue has recently
                                                     the 5-year time frame. We have now             announced President Bush’s nominee to
                                                     completed most all of the RTC-related          replace her, and there may be other new
                                                     work that carried over; helped successfully    appointments at the highest levels of the
                                                     usher in the Year 2000; focused our efforts    Office of Thrift Supervision and the Office
                                                     to address the Corporation’s current           of the Comptroller of the Currency that
                                                     strategic goals and priorities;                will further modify the composition of the
                                                     demonstrated that we can provide               Board of Directors at the FDIC.
                                                     additional economies, efficiencies, and
                                                     integrity to the Corporation’s programs


2
          So although we have                           In closing, I wish to thank the                Finally, I thank Chairman
accomplished a great deal over the past 5     OIG staff for their support and efforts over   Tanoue for her leadership of the FDIC and
years, the OIG’s work is far from over, and   the past 5 years and also acknowledge a        support of the OIG during my tenure. It
we now find ourselves – along with the        number of retirements over the past 6          has been a great honor and privilege to
Corporation – at a major crossroads as we     months. Key members of the OIG’s               have served as Inspector General for the
look ahead during this time of flux. We       management team, Steve Switzer, Shirley        past 5 years, and I look forward to
need to stay current with the dynamic         Ward, and Dana Bedwell, have retired           continuing to address the challenges we
nature of the banking industry. We need       from the OIG after highly distinguished        face at the FDIC.
to continue to improve as an organization     federal careers. Ed Sobota, Lorin
and work together energetically to provide    Wiseman, and Hank Smith also retired
quality and timely products and services      after making significant contributions to
to our clients and stakeholders. We need      the OIG during their years of service. We
to be creative and efficient in our work      wish them all well. I also acknowledge the
processes. We need to engage in               departure of former Vice Chairman
                                                                                             Gaston L. Gianni, Jr.
productive and constructive dialogue with     Andrew C. Hove whose leadership of the
                                                                                             Inspector General
our counterparts at all levels of the FDIC    Corporation during his 10 years at the
                                                                                             April 30, 2001
to better understand and carry out our        FDIC helped ensure continuity during a
respective missions and goals. We need to     number of challenging transition periods.
continue to work with others in the           He also served as Chairman of the Audit
Inspector General community and learn         Committee for 2 years. The OIG
best practices from our peers. We need to     welcomes John M. Reich as the newest
be constantly attuned to the concerns and     member of the Board of Directors and
priorities of the Congress as we carry out    Chairman of the Audit Committee and
our work. We will seize these challenges in   looks forward to working closely with him
the days ahead.                               to help carry out the corporate mission.




                                                                                                                                         3
Table of Contents


Inspector General’s Statement ..........................................................................2
Overview ..........................................................................................................7
Highlights ..........................................................................................................9
Major Issues ....................................................................................................11
Investigations ..................................................................................................27
OIG Organization ............................................................................................34
OIG 2000 Performance Report........................................................................43
Reporting Terms and Requirements................................................................61
Appendix I: Statistical Information Required by the Inspector General
             Act of 1978, as amended..............................................................63
Appendix II: Products Issued by the Office of Congressional Relations
               and Evaluations..........................................................................71
Abbreviations and Acronyms ..........................................................................72

Tables
Table 1:        Significant OIG Achievements ......................................................38
Table 2:        Nonmonetary Recommendations ..................................................38
Table 3:        OIG Review of Proposed or Existing Legislation and Regulations ....39


Figures
Figure 1: Products Issued and Investigations Closed ....................................40
Figure 2: Questioned Costs/Funds Put to Better Use ....................................40
Figure 3: Fines, Restitution, and Monetary Recoveries Resulting
          from OIG Investigations ................................................................41




                                                                                                                         5
                                             proposed by Chairman Tanoue will               know that it is getting the goods and
Major Issues                                 continue to be debated and deliberated         services for which it is spending millions
     The Major Issues section of our         by the banking industry and the                of dollars.
report focuses on key challenges             Congress. One aspect of such reform                 Major downsizing over the past 5
confronting the FDIC as it works to          involves the possible merger of the Bank       years and natural attrition have greatly
accomplish its mission. In the OIG’s         Insurance Fund and the Savings                 impacted the FDIC workplace. As a
view, these major issues fall into two       Association Insurance Fund, an action          result, the Corporation has lost
broad categories. First, the Corporation     that the OIG supports. As our report           leadership and, in some cases, expertise
faces challenges related to its core         discusses, we also believe that when such      and historical knowledge. The
mission of contributing to the stability     a merger occurs, the timing would be           Corporation’s diversity and other efforts
and public confidence in the nation’s        opportune for the OIG to become the            are helping to restore some of the lost
financial system by insuring deposits,       auditor of record for the Corporation.         talent and skill. The FDIC must build on
examining and supervising financial          Our cooperative work with the U.S.             ongoing initiatives and continue to
institutions, and managing receiverships.    General Accounting Office on the               develop a comprehensive, integrated
Such challenges sometimes involve            Corporation’s financial statement audit is     approach to human capital issues. It has
significant policy decisions and are often   designed to see to that end.                   worked with a contractor to help develop
influenced by external factors such as            Turning attention to the                  a process for a human capital strategy;
industry events, economic trends,            Corporation’s more “operational”               however, more needs to be done. In light
activities of other federal banking          demands, the use of information                of changes in the banking industry,
regulators, consumer concerns, and           technology (IT) at the FDIC is                 advances in technology, and such
congressional interest.                      crosscutting and absolutely essential to       dramatic shifts in staffing and skill levels,
    Second, a number of important            the Corporation’s accomplishment of its        the Corporation has begun to closely
operational matters require the              mission. In conducting its IT activities,      scrutinize its business processes and
Corporation’s attention as its workforce     the Corporation’s priority must be the         their associated costs in the interest of
actually carries out the corporate           effective and efficient use of IT to achieve   identifying operational efficiencies. Its
mission. These issues touch on, for          program results corporate-wide. It also        Division of Supervision Process Redesign
example, information technology              needs to follow sound system                   project and review of administrative
resources, contracting activities, human     development life cycle procedures,             services functions are generating new
capital concerns, cost efficiencies, and     comply with IT principles espoused by          ideas for such efficiencies and are
performance measurement and                  legislation and regulation, and ensure         positive steps.
accountability.                              that effective controls are in place to             Finally, under the provisions of the
                                             safeguard system security, mitigate risks,     Government Performance and Results
     With respect to the first category,
                                             and protect IT resources. Given the            Act with its emphasis on accountability,
the Corporation must address risks to the
                                             extent of the FDIC’s contracting               for all of these major issues and their
insurance funds in a complex global
                                             activities, strong controls and vigilant       corresponding challenges the
banking environment that continues to
                                             contractor oversight are also critical to      Corporation must establish goals,
experience change and offer expanded
                                             the Corporation’s success. Contracting         measure performance, and report on its
services. At the same time, the
                                             must be done in the most cost-effective        accomplishments.
Corporation is charged with effectively
                                             manner and, in the case of contract
supervising the financial institutions it                                                       Our Major Issues section also
                                             agreements associated with securitized
regulates and carefully protecting                                                          discusses the OIG’s completed and
                                             transactions, for example, additional care
consumers’ rights. A Board of Directors                                                     ongoing/planned work to help the
                                             must be taken. In such cases, large sums
operating at full strength is essential to                                                  Corporation successfully confront these
                                             of money are at stake and the FDIC does
lead the Corporation as it faces such                                                       major issues and their associated
                                             not control the entire management and
challenges. As the Corporation moves                                                        challenges. We discuss areas where we
                                             disposition process. For all areas of
forward, the deposit insurance reforms                                                      identified opportunities for cost savings
                                             contracting, the Corporation needs to
                                                                                                                                            7
    and recoveries or other improvements         project and the Corporation’s
    and the recommendations we made in           administrative services review, our
    those areas. Questioned costs and funds      agreement with the Division of
    put to better use for the period total       Resolutions and Receiverships and the
    approximately $8 million. We made 90         Financial Crimes Unit regarding
    nonmonetary recommendations. Our             coordination of OIG investigations, and
    work targets all aspects of corporate        making presentations at corporate
    operations and includes a number of          conferences and meetings. We present a
    proactive approaches and cooperative         listing of proposed or existing laws and
    efforts with management to add value to      regulations reviewed during the past 6
    the FDIC (see pages 11 - 26).                months, refer to litigation efforts of OIG
                                                 Counsel, and also capture some of our
                                                 other internal initiatives this reporting
    Investigations
                                                 period. In keeping with our goal of
              The operations and activities of   measuring and monitoring our progress,
    the OIG’s Office of Investigations are       we visually depict significant results over
    described beginning on page 27 of this       the past five reporting periods (see pages
    report. As detailed in the Investigations    34 - 41).
    section, the Office of Investigations is
    reporting fines, restitution, and
                                                 OIG’s 2000 Performance Report
    recoveries totaling approximately $67
    million. Cases leading to those results                We are including the OIG’s 2000
    include investigations of bank               Performance Report as a separate but
    embezzlement, mail fraud, bribery, bank      integral component of our Semiannual
    fraud, misrepresentations regarding FDIC     Report to the Congress. Our performance
    insurance, computer theft, securities        report summarizes our progress against
    fraud, and identity theft. Some of the       our annual plan, which contained 36
    investigations described reflect work we     specific goals captured under the
    have undertaken in partnership with          following three areas: Audits,
    other law enforcement agencies and with      Evaluations, and Investigations Add
    the cooperation and assistance of a          Value; Professional Advice Assists the
    number of FDIC divisions and offices. To     Corporation; and OIG Communicates
    ensure continued success, the OIG will       Effectively with Clients/Stakeholders. It is
    continue to work collaboratively with        our hope that by presenting this report
    FDIC management, U.S. Attorneys’             along with our semiannual report, the
    Offices, the Federal Bureau of               Congress and other readers will have a
    Investigation, and a number of other law     more complete picture of the FDIC OIG’s
    enforcement agencies (see pages 27 - 33).    overall performance and accountability
                                                 (see pages 43 - 60).
    OIG Organization
                                                 Appendixes
              The OIG Organization section of
    our report highlights several key internal             We list the Inspector General
    initiatives that we have actively pursued    Act reporting requirements and define
    during the reporting period. The OIG’s       some key terms in this section. The
    internal focus has been on valuing our       appendixes also contain much of the
    human capital and strengthening working      statistical data required under the Act
    relationships. This section of our report    and other information related to our
    also references some of the cooperative      work this period (see pages 63 - 71).
    efforts we have engaged in with
    management during the reporting period,
    including our involvement with the
    Division of Supervision Process Redesign


8
• The Office of Audits and Office of         over $288 million in outstanding           • The OIG responds to two new
  Congressional Relations and                restitution orders or other types of         Congressional reporting requirements –
  Evaluations issue a total of 24 reports    debt.                                        one relating to the timeliness of the
  and 21 other audit- or evaluation-                                                      Corporation’s payment of District of
  related products. The reports identify    • The OIG and U.S. General Accounting         Columbia water and sewer bills and the
  questioned costs of $5.7 million (of        Office continue their joint effort to       other related to the FDIC’s collection of
  which $1.8 is unsupported) and funds        audit the Corporation’s financial           information about individuals who
  put to better use of $2.3 million.          statements. The OIG plays an                access its Web site.
  Management disallows all costs              increasingly greater role and employs a
  questioned.                                 “continuous auditing” approach for the    • The OIG continues work to review the
                                              project.                                    FDIC’s special examination authority
• OIG reports include 90 nonmonetary                                                      and DOS’s effectiveness in monitoring
  recommendations to improve corporate      • The OIG coordinates with and assists        risks posed by the nation’s largest
  operations. Among these are recom-          management on a number of initiatives,      banks.
  mendations to further strengthen the        including its contractor oversight
  Corporation’s risk-focused examination      summit, providing training during         • The OIG issues the results of two audits
  process, improve controls over the          Commissioned Examiner seminars              addressing aspects of DOS’s risk-
  FDIC’s laptop computer inventory,           based on the OIG’s experience               focused safety and soundness
  enhance the effectiveness of the            investigating the failure of the First      examination process: (1) DOS’s use of
  Corporation’s information technology        National Bank of Keystone, and              expanded and impact analysis
  (IT) risk management program, and           consulting on a multitude of IT-related     examination procedures for high-risk
  better verify and validate performance      matters.                                    areas and (2) DOS’s examination of
  data.                                                                                   regulated institutions’ compliance with
                                            • The OIG accomplishes a number of            the Bank Secrecy Act.
• OIG investigations result in 11             internal office initiatives, including
  indictments/informations; 14                furthering efforts to automate OIG        • The OIG’s IT-related work contributes
  convictions; and approximately $67          workpapers, participating in                to significant improvements in IT
  million in total fines, restitution,        interagency Government Performance          security management and controls,
  monetary recoveries, and asset              and Results Act interest groups,            including the Corporation’s computer
  forfeitures – the largest investigative     formulating an action plan in response      virus protection program, IT risk
  monetary benefits for a 6-month period      to the FDIC’s Organizational                management program, process for
  in the history of the FDIC OIG.             Assessment Survey, and engaging in a        managing IT maintenance expenses,
                                              number of diversity activities.             and controls over laptop computers.
• The OIG reviews 5 proposed or existing
  federal regulations and legislation and   • The OIG provides briefing information     • OIG reviews of contracts and
  30 proposed FDIC policies and               to John Reich, the new FDIC Director        agreements lead to $5.7 million in
  responds to 13 requests and appeals         and head of the Audit Committee, to         questioned costs (of which $1.8 million
  under the Freedom of Information Act        familiarize him with the role and           is unsupported) and recommendations
  and Privacy Act.                            mission of the OIG at the FDIC.             for improved contractor oversight.

• The OIG continues efforts with the        • The OIG participates actively in the      • The OIG evaluates the degree to which
  Division of Resolutions and                 Division of Supervision (DOS) Process       FDIC program offices verify and
  Receiverships (DRR) to pursue court-        Redesign project to improve current         validate performance data presented in
  ordered restitution. As of March 31,        operating efficiency and proactively        Government Performance and Results
  2001, the OIG is conducting 45              prepare for challenges ahead.               Act reports.
  investigations that are being coordi-
  nated with DRR and involve a total of
                                                                                                                                      9
     • The OIG joins with the Office of
       Internal Control Management in
       studying administrative services
       functions throughout the Corporation
       to assist FDIC management in efforts to
       improve operational efficiencies and
       reduce costs.

     • The OIG’s Office of Investigations,
       DRR, and the Financial Crimes Unit
       finalize an agreement regarding
       coordination on OIG investigations
       involving failed institutions, debtors,
       and/or asset dispositions.

     • A joint investigation by the OIG and
       the Federal Bureau of Investigation
       (FBI) results in prison sentences for
       two former executives of a famed
       Kentucky horse farm. The two are
       ordered to pay a total of $41 million in
       restitution after being found guilty of
       offering a $1.1 million bribe to a bank
       director.

     • Two former officers of the first National
       Bank of Keystone, Keystone, West
       Virginia, are indicted on charges of
       bank embezzlement, conspiracy to
       commit bank embezzlement, and mail
       fraud. The Keystone investigation is
       being conducted by a multi-agency task
       force comprised of special agents of the
       FDIC OIG, FBI, and Internal Revenue
       Service and prosecutors from the U.S.
       Attorney’s Office for the Southern
       District of West Virginia and the
       Department of Justice. The FDIC’s
       DRR is also assisting the task force.

     • The OIG issues its 2000 Performance
       Report (included in this semiannual
       report) presenting our performance
       against 36 goals outlined in our annual
       performance plan.

     • The OIG completes its third client
       survey to obtain views and feedback
       from senior and operating FDIC
       management in the interest of seeking
       to constantly improve OIG operations
       and products.


10
                                                    During the reporting period, John M.      that the vacant Board position will soon
Organizational Leadership                     Reich was confirmed by the Senate as a          be filled so that the Board can operate at
     By law, the Board of Directors of the    member of the FDIC’s Board of Directors         full strength as it guides the future course
FDIC consists of five individuals. Three of   to fill a Board position. Mr. Reich will also   of the FDIC.
these positions are nominated for FDIC        serve as Chairman of the FDIC’s Audit
service directly by the President (the        Committee. Still one Board position, left       Supervising Insured Institutions
Chairman, Vice Chairman, and an               vacant by departing Vice Chairman
appointed Director), and two are filled by    Andrew C. Hove, remains unfilled. With               As the primary federal regulator of
other Presidential appointees (the            the likelihood of a new Chairman                state-chartered institutions that are not
Comptroller of the Currency and the           replacing Chairman Tanoue and possible          members of the Federal Reserve System,
Director of the Office of Thrift              new presidential appointees that would          the FDIC shares joint responsibility with
Supervision). The five-member Board           head the Office of Thrift Supervision and       the state banking departments for
was established in 1989 with the passage      the Office of the Comptroller of the            monitoring and supervising the safety
of the Financial Institutions Reform,         Currency, we again reiterate our hope           and soundness of over 5,000 financial
Recovery and Enforcement Act. Before
that time, the Board consisted of a
Chairman, an appointed Director, and
the Comptroller of the Currency.                 Management Challenges at the FDIC
     During the 1990s, one or more                In the interest of improving federal performance government-wide, Senator Fred
Presidentially-appointed positions on the     Thompson, as Chairman of the Senate Governmental Affairs Committee, has asked Offices
Board of Directors frequently were            of Inspector General to identify the 10 most significant management challenges facing
vacant. The FDIC is both the                  their agencies. At the FDIC, our office has identified these challenges as follows:
independent regulator of a significant             • Organizational Leadership
portion of the nation’s banking system as
well as the only federal insurer of                • Supervising Insured Institutions
deposits wherever placed in our nation’s           • Protecting Consumer Interests
banks. As a Corporation governed by its            • Addressing Risks to the Insurance Funds
Board of Directors, the vital balance
between various interests implicit in the          • Merging the Insurance Funds
Board’s structure is preserved only when           • Managing Information Technology
all vacancies are filled. Certain critical
                                                   • Ensuring Sound Controls and Oversight of Contracts and Agreements
powers (for example, the authority to
conduct a special examination of an                • Establishing Goals and Measuring Results
institution regulated by the Office of the         • Addressing Human Capital Issues
Comptroller of the Currency, the Office
                                                   • Containing Costs and Assessing Business Processes
of Thrift Supervision, or the Federal
Reserve Board should the FDIC                     The Government Performance and Results Act provides a mechanism to establish
independently conclude that an                goals and measures to address these significant management challenges. Through
institution poses a significant risk to the   continuous Results Act reporting, the FDIC should address congressional expectations
insurance fund) can only be invoked at        that the FDIC’s performance and reports clearly inform the Congress and the public of the
the Board level. Accordingly, we have         results and outcomes of the Corporation’s major programs and activities.
strongly urged that vacancies on the              The OIG will continue to work closely with corporate management to address all of
FDIC’s Board be filled as promptly as         these challenges and will monitor progress made by the Corporation to fully conform with
practicable in order to afford the FDIC       the intent of the Results Act.
the balanced governance and sustained
leadership essential to the agency’s
continued success.
                                                                                                                                             11
     institutions. The challenge to the            Considering the lead time required for        different, future operating environment.
     Corporation is to ensure that its system      developing new commissioned                   With significant restructuring in the
     of supervisory controls will identify and     examiners, the FDIC needs to ensure the       financial services industry, DOS
     effectively address financial institution     examination force will be adequate for        recognized the need to develop a
     activities that are unsafe, unsound,          handling potential problems and bank          comprehensive response to the
     illegal, or improper before the activities    failures. The FDIC should be careful to       significant challenges posed by
     become a drain on the deposit insurance       avoid repeating mistakes of the past,         consolidation in the banking industry,
     funds. In accordance with statutory           such as during the savings and loan crisis    alliances between financial services
     requirements and corporate policy, the        of the 1980s when the examination             providers, and technological change.
     Division of Supervision (DOS) projected       workforce was reduced at a time of                 DOS management invited the OIG to
     starting over 2,600 safety and soundness      expanded institution powers and               participate in this important endeavor.
     examinations in 2001.                         increased competitive pressures.              Senior staff and specialists from our
          Emerging trends and new                       There may also be a more                 Office of Audits and Office of
     developments in the banking industry          fundamental need to reassess the              Congressional Relations and Evaluations
     will require DOS to increase its efforts to   agency’s approach to bank examinations        were involved in each of the five process
     identify and assess risks from:               and supervision by redesigning the            redesign groups established by DOS.
     • declining underwriting standards for        process to better address information         These five groups were responsible for
       commercial real estate lending;             systems capabilities and limitations in       evaluating DOS’s examination and
                                                   targeting areas of increasing risk as         application processes, headquarters and
     • rapid changes in bank operations            quickly as possible. Specifically, the FDIC   field infrastructure, training and
       between safety and soundness                should consider developing online bank        administration, technology, and policies.
       examinations;                               monitoring systems to supplement                   As an initial step, we provided DOS
                                                   quarterly call report data, expanding the     with lists and copies of OIG reports
     • expanded banking activities permitted
                                                   use of permanent on-site teams in larger      containing recommendations related to
       by the Gramm-Leach-Bliley Act;
                                                   institutions, and developing quick            each of the process redesign areas. We
     • the growth of information technology        response examination teams to conduct         also participated in the group meetings
       and its increasing impact on payment        focused examination work in specialty         and teleconferences, providing
       systems and other traditional banking       areas that need immediate attention.          information related to the group
       functions; and                                                                            discussions and offering our comments
     • fraudulent activities, which have           OIG Participates in Division of               and perspectives for DOS consideration.
       contributed significantly to bank           Supervision’s Process Redesign                In addition, we ensured that the DOS
       failures in recent years.                   Project                                       project plans were coordinated with
                                                        The OIG has been working to assist       evaluations we were conducting of the
          Additionally, there are continuing
                                                   the Corporation in carrying out a number      FDIC’s field office costs and utilization
     pressures for the FDIC to increase the
                                                   of these challenges through active            and administrative services. As the
     efficiency of the bank examination
                                                   involvement with the DOS Process              process redesign groups prepared their
     process. DOS has responded by risk-
                                                   Redesign initiative.                          reports, we offered our comments on the
     focusing the examination process to
                                                                                                 draft products provided to us for review.
     increase examination effectiveness.                In the first quarter of this year, we
     However, as red flags surface during off-     joined with other FDIC divisions and               As a result of the process redesign
     site monitoring and on-site examinations,     offices in supporting DOS in its process      effort, DOS identified specific initiatives
     there may be a need for the use of more       redesign initiative. DOS is responsible for   that will provide immediate results and
     in-depth examination procedures to            assessing the safety and soundness of         has recommended further actions to
     avoid possible over-reliance on bank          institutions supervised by the FDIC as        improve FDIC operations and achieve
     management controls, information              well as monitoring the insurance risks        significant cost savings. A few of the
     systems reports and the services of third-    posed by institutions supervised by the       benefits expected from this project
     party contractors, and to confirm the         Federal Reserve, the Office of the            include:
     accuracy of institution data.                 Comptroller of the Currency, and the          • restructuring the report of examination
          Also, with the possibility of an         Office of Thrift Supervision.                   and documentation requirements to
     economic downturn, DOS should focus               DOS management initiated the                improve the effectiveness and
     on identifying the size of the examination    process redesign effort to improve              efficiency of examinations,
     staff needed to ensure sufficient capacity    current operating efficiency and to
     for addressing increased risks.               proactively prepare for challenges in a

12
• realigning the organizational structure    evaluating timeliness over a given          the lack of credit availability, financial
  and delegations of authority to improve    reporting period. Finally, information      expertise, financial counseling, or poor
  operations,                                recorded in the Corporation’s application   credit history.
                                             tracking system was not always accurate.         Another important aspect of
• providing computer-based instruction
                                             We made three recommendations to            protecting consumer rights is consumer
  in place of some classroom training to
                                             address these concerns, and management      privacy. With the enactment of the
  reduce training costs,
                                             concurred with them.                        Gramm-Leach-Bliley Act, the FDIC, along
• developing specialist programs for large                                               with other financial institution
  bank supervision and technology to         Protecting Consumer Interests               regulators, must work with the
  address areas of increased risk, and                                                   institutions to develop programs to
                                                  The FDIC is legislatively mandated     ensure the privacy of consumer
• streamlining the policy development        to enforce various statutes and
  process to reduce response time for                                                    information. In addition, based on our
                                             regulations regarding, for example,         specific work in DCA, we believe Division
  answering policy-related questions.        consumer protection and civil rights with   management must continue to improve
     The OIG welcomes the opportunity        respect to state-chartered, non-member      controls over the CRA evaluation process
to participate in this important project.    banks and to encourage community            to ensure that CRA examination
While the OIG must remain independent        investment initiatives by these             procedures are applied on a consistent
and cannot take an active role in            institutions. Some of the more prominent    basis.
management decisions, we have been           laws and regulations in this area include
                                             the Truth in Lending Act, Fair Credit           FDIC management completed a
able to assist by providing relevant
                                             Reporting Act, Real Estate Settlement       comprehensive internal review of CRA
information, reviewing and commenting
                                             Procedures Act, Fair Housing Act, Home      reports from FDIC regions in December
on group ideas and products, and offering
                                             Mortgage Disclosure Act, Equal Credit       2000. The Division is instituting new
an independent perspective on the
                                             Opportunity Act, and Community              controls and procedures to address the
direction of each of the groups. DOS
                                             Reinvestment Act (CRA) of 1977. The         concerns raised by both the OIG’s work
management has been receptive to our
                                             FDIC’s primary means of accomplishing       and the Division’s own review.
input and has requested our continued
involvement through the implementation       these tasks is through compliance
phase for some of the proposed               examinations and CRA performance            Ongoing Work Focuses on Fair
initiatives.                                 evaluations. During 2001, the Division of   Lending Examination Risk Scoping
                                             Compliance and Consumer Affairs (DCA)       Process
                                             estimates that it will perform more than         We are currently conducting an audit
OIG Reviews Timeliness of
                                             600 comprehensive (compliance and           of the fair lending examination risk
Processing Deposit Insurance                 CRA) examinations and over 1,500
Applications                                                                             scoping process conducted by DCA. We
                                             compliance examinations.                    are assessing the effectiveness of the
     Also during the reporting period we
                                                  Due to the public interest aspect of   process used by the FDIC to scope and
issued the results of our review of the
                                             consumer protections and potential          identify fair lending risks during the
FDIC’s timeliness of processing
                                             consumer exposures, the FDIC must           planning phase of DCA compliance
applications for deposit insurance. DOS
                                             detect and promptly correct problems in     examinations and also evaluating the
had asked the OIG to determine whether
                                             institutions, promote compliance with       effectiveness of management controls and
DOS processed applications consistently
                                             consumer protection laws and                oversight.
regardless of the applicant’s primary
                                             regulations, and increase public                 “Fair lending” is a term used to
federal regulator. Our review found no
                                             understanding of and confidence in the      describe compliance with federal laws
evidence that DOS treated applications
                                             deposit insurance system. The FDIC          and regulations prohibiting
from any of the primary regulators
                                             must also respond to consumer               discrimination in a bank’s credit
differently. However, we did note that
                                             complaints and inquiries. Some of these     operations. Two federal statutes
case managers did not always follow DOS
                                             complaints and inquiries relate directly    specifically prohibit discrimination in
guidelines regarding accepting
                                             to financial literacy and predatory         lending. The Fair Housing Act, enacted
applications for deposit insurance. Also,
                                             lending–issues of primary concern for       by Title VIII of the Civil Rights Act of
DOS could improve its application
                                             DCA. These practices often seem to have     1968, prohibits discrimination in
processing timeliness by ensuring that
                                             a disproportionately negative effect on     housing, including the financing and
applications are substantially complete
                                             under-served low- and moderate-income       insuring of transactions. The Equal
before accepting them for processing.
                                             borrowers, minority groups, and the         Credit Opportunity Act of 1974 prohibits
The FDIC could also enhance its
                                             elderly, who may be made vulnerable by      discrimination in all lending, including
monitoring of the application process by

                                                                                                                                      13
     housing loans. Federal banking regulators    and events are posing additional risks to          The recent spate of bank mergers
     are responsible for performing regularly     the funds. The environment in which           has created “megabanks” (more recently
     scheduled examinations of insured            financial institutions operate is evolving    referred to as “large banks”), and, for
     depository institutions and their            rapidly, particularly with the acceleration   many of these institutions, the FDIC is
     subsidiaries to assess compliance with       of interstate banking, new banking            not the primary federal regulator. As of
     fair lending laws.                           products, electronic banking, and             December 31, 2000, the 46 largest
           The FFIEC has approved Interagency     consolidations and/or integrations that       banking organizations in the United
     Fair Lending Examination Procedures          may occur among the banking,                  States controlled assets totaling
     intended to provide consistency in the       insurance, and securities industries          approximately $4.1 trillion, accounting
     fair lending examination process among       resulting from the enactment of the           for nearly 55 percent of assets held by all
     federal banking regulators through a         Gramm-Leach-Bliley Act. More                  FDIC-insured institutions. Of the 46, the
     basic, flexible framework. While each        specifically, in recent years, some           FDIC was the primary federal regulator
     regulatory agency has the flexibility to     institutions have grown rapidly through       for only 4. The large banks created as a
     amend its examination procedures for         an influx of deposits and new institutions    result of mergers and the new or
     reviewing fair lending compliance, each      have been created, all without payment        expanded services that the institutions
     agency has adopted the interagency           of deposit insurance premiums. The            can engage in under the Gramm-Leach-
     procedures effective January 1999. The       FDIC needs to ensure that the deposit         Bliley Act will no doubt present
     procedures provide guidance on taking a      insurance funds provide adequate              challenges to the FDIC and may pose
     comprehensive, efficient, risk-based         protection against the risk of institution    new risks to the deposit insurance funds.
     approach to examining banks for              failures and that deposit insurance                To monitor the insurance risks
     compliance with the nondiscriminatory        premiums are assessed on a risk-based         associated with the more than 4,000
     requirements of the Fair Housing Act and     basis.                                        institutions supervised by other federal
     the Equal Credit Opportunity Act. Our             Emerging technological                   banking agencies, the FDIC relies
     audit will determine whether DCA             advancements and the Internet are             primarily on the examination and
     consistently and effectively applies the     revolutionizing the financial services        supervision provided by the other
     procedures during the exam planning          industry on a global basis. In a few years,   agencies. However, the FDI Act also
     phase. We will issue our results in the      the Internet may become the instrument        provides the FDIC with the authority to
     upcoming semiannual reporting period.        of choice for managing financial services.    conduct its own special examinations for
                                                  In order to maintain the integrity of the     insurance purposes and to take
                                                  banking systems, the FDIC must                supervisory enforcement actions as
     Addressing Risks to the Insurance
                                                  continue to take a proactive approach to      needed to address safety and soundness
     Funds
                                                  these emerging technologies by                concerns that increase risks to the funds.
          A primary goal of the FDIC under its    instituting new examination policies and      In this regard, based on audit work
     insurance program is to ensure that its      procedures to address the risks arising       during past reporting periods that
     deposit insurance funds remain viable.       from these advances.                          assessed the FDIC’s supervision for
     Achievement of this goal is a                     The FDIC also needs to maintain a        insurance purposes, we identified several
     considerable challenge given that the        vigilant watch over other sectors of the      areas in which DOS needed additional
     FDIC supervises only a portion of the        economy, such as real estate, commercial      emphasis and support in its interagency
     insured depository institutions. The         lending, and agriculture, that could erupt    coordination efforts. Specifically, the
     identification of risks in non-FDIC-         into problem areas. Through various           FDIC needed to take action to ensure:
     supervised institutions requires             reporting vehicles such as research and       • the adequacy of interagency
     coordination with the other federal          reporting on underwriting standards, the        coordination arrangements, with
     banking agencies. The FDIC engages in        FDIC further seeks to guard the safety          respect to both information-sharing
     an ongoing process of proactively            and soundness of the nation’s financial         and attendance at key meetings with
     identifying risks to the deposit insurance   institutions.                                   bank management;
     funds and adjusting the risk-based
     deposit insurance premiums charged to             The enactment of the Gramm-Leach-        • full access to the bank information
     the institutions. The Division of Finance    Bliley Act in November 1999 created the         systems developed and relied upon by
     completes the final phase in this process    most sweeping changes in banking since          the other federal banking agencies;
     by collecting the premium assessments.       the 1930s. It allows affiliations between
                                                  insured banks and financial companies,        • the use of special back-up examination
         Although the FDIC has a continuous       including securities and insurance firms,       powers without restraints imposed by
     program to ensure the viability of the       in new types of entities known as               the other federal banking agencies; and
     deposit insurance funds, recent trends       “financial holding companies.”
14
• increased coordination with both             results of which will be communicated in    language in existing guidance regarding
  federal and state regulators of securities   our next semiannual report.                 the use and documentation of expanded
  and insurance operations.                                                                and impact analysis procedures.
     Without progress in these areas, the      Several Important Aspects of the                 We also recommended that DOS
FDIC will be hampered in its effort to         Risk-Focused Exam Process Can Be            examiners include more information in
monitor insurance risks, especially in         Improved                                    the pre-examination planning
connection with the largest institutions            The OIG reviewed several key           memoranda, including the applicability of
where the failure of just one could            aspects of DOS’s risk-focused               expanded analysis for potential high-risk
bankrupt the related deposit insurance         examination process during the current      areas. DOS management also needs to
fund. To ensure the FDIC’s effectiveness       reporting period. First, we audited DOS’s   emphasize the role of regional and field
as a counterbalancing control, legislative     use of expanded and impact examination      office supervisory personnel in ensuring
action may be necessary to provide             procedures in the risk-focused              complete implementation of the risk-
special examination authority directly to      examination process. DOS developed the      focused examination process and develop
the FDIC Chairman.                             examination documentation (ED)              a national requirement for post-
                                               modules to provide examiners with a tool    examination analysis. Taken together, we
                                               to focus on risk management and to          believe these recommendations will
OIG Continues Work on the FDIC’s
                                               establish guidelines for an appropriate     strengthen the entire risk-focused
Special Examination Authority                                                              examination process and provide benefits
                                               examination scope, approach, and
     On October 19, 1999, we issued an                                                     for future examinations. Our report also
                                               examination program, including
audit memorandum to the FDIC                                                               reflected a number of best practices from
                                               workpaper documentation. The ED
Chairman communicating concerns                                                            four regional offices.
                                               modules incorporate questions and
resulting from our review of DOS’s efforts
                                               points of consideration into examination         DOS management agreed with the
to monitor risks at institutions for which
                                               procedures to specifically address a        intent of the recommendations we made
the FDIC is not the primary federal
                                               bank’s risk management strategies for       and committed to take action; however,
regulator. In early 2000, we submitted a
                                               each of its major business activities.      management expressed concern over the
statement for the record to the former
                                               Within the ED modules examination           potential increase in examiner time that
House Committee on Banking and
                                               procedures are separated into three         might be devoted to preparing additional,
Financial Services in connection with
                                               distinct tiers of review: core, expanded,   and possibly duplicative, workpaper
H.R. 3374 – proposed legislation designed
                                               and impact analysis. The extent to which    documentation. DOS also noted that its
to strengthen the FDIC’s ability to
                                               an examiner works through each of the       ongoing Process Redesign initiative might
monitor and assess risks in those
                                               three tiers of the ED modules depends       affect the policies and requirements for
financial institutions supervised by the
                                               upon the conclusions reached regarding      using the ED modules and proposed
other federal banking agencies. Following
                                               the presence of significant concerns or     alternatives to some parts of our
a hearing on February 8, 2000, that
                                               deficiencies.                               recommendations. The OIG will follow
focused on bank failures and regulatory
initiatives, the Committee withdrew the              Our audit determined that, for the    up to determine whether all
proposed legislation.                          most part, examiners completed core         recommendations have been adequately
                                               analysis procedures and answered core       addressed in light of DOS’s Process
    Although the FDIC has a continual                                                      Redesign effort.
                                               analysis decision factors. However, more
program to ensure the viability of the
                                               needed to be done in the documenting of          Our second audit that was related to
deposit insurance funds and has initiated
                                               expanded analysis and impact analysis.      the risk-focused examination process
steps to enhance its large bank
                                               We recommended additional steps that        involved the Bank Secrecy Act (BSA). We
supervision program, some of the
                                               DOS could take during pre-examination       conducted the audit to determine the
underlying problems related to DOS’s
                                               planning, examination performance, and      extent to which DOS examiners reviewed
dependence on the other federal
                                               post-examination analysis to help ensure    regulated institutions’ compliance with
regulators have not been fully resolved.
                                               full implementation and complete            the BSA during the course of safety and
     Accordingly, to reevaluate the            management support of the risk-focused      soundness examinations of financial
conditions that prompted our 1999              examination process. Specifically, we       institutions.
memorandum to the Chairman and the             recommended that DOS require and
ongoing concerns, we are conducting a                                                           By way of background, in 1970 the
                                               ensure that examiners use expanded and
follow-up review of the use of special                                                     Congress passed the BSA to aid law
                                               impact analysis sections of the ED
examination authority and DOS’s                                                            enforcement agencies in the investigation
                                               modules to document work performed in
effectiveness in monitoring the risks                                                      of suspected criminal activity ranging
                                               high-risk areas and that DOS clarify the
posed by the nation’s largest banks, the                                                   from income tax evasion to money

                                                                                                                                       15
     laundering by organized crime. More           systems available and by clarifying the         health of the funds and the health of the
     recently, law enforcement agencies have       OFAC planning procedure. Specifically,          banking industry, the FDIC believes that
     found BSA reports and records                 examiners did not consistently use the          the timing for a merger of the funds is
     maintained by financial institutions          independent FinCEN examination                  optimal. The FDIC believes that a merger
     extremely valuable in investigating drug      support databases that contain                  would strengthen deposit insurance by
     trafficking.                                  information of CTRs and SARs during the         diversifying risks and providing overall
           The BSA regulations require all         examination planning process. Examiners         efficiencies. The ABA has indicated
     financial institutions to maintain certain    also generally did not review the OFAC          agreement with the FDIC but believes
     records and prepare reports on cash           listing to identify a financial institution’s   that a merger of the funds must be
     transactions by and through financial         potential violations of OFAC regulations.       accompanied by other deposit insurance
     institutions in excess of $10,000 into, out   We made two recommendations relating            reforms.
     of, and within the United States.             to these issues. The Corporation agreed              During 2001 there is a strong
     Specifically, a financial institution must    with the intent of our recommendations          likelihood that the new Congress will
     file a Currency Transaction Report (CTR)      and will take actions to address our            introduce legislation that will address the
     with the Internal Revenue Service for         concerns. The OIG is currently                  merging of the funds and other deposit
     each cash transaction over $10,000 or         conducting additional work related to the       insurance reforms. It is also anticipated
     multiple cash transactions by an              use of SARs, CTRs, and OFAC data in             that FDIC will continue to lead the
     individual in 1 business day aggregating      examinations.                                   debate on broader deposit insurance
     over $10,000. In addition, BSA requires                                                       reform.
     financial institutions to file a Suspicious   Merging the BIF and SAIF                             The OIG is a proponent of the
     Activity Report (SAR) with the                                                                eventual merging of the BIF and SAIF.
     Department of the Treasury’s FinCEN                The FDIC and a number of other
                                                   policymakers have proposed that the             The OIG also believes that when such a
     when suspected money laundering                                                               merger occurs, the timing is opportune
     activity or BSA violations occur. Finally,    Bank Insurance Fund (BIF) and the
                                                   Savings Association Insurance Fund              for the OIG to become the auditor of
     Treasury’s Office of Foreign Assets                                                           record for the FDIC. A formal, legislative
     Control (OFAC) promulgated regulations        (SAIF) be merged. In February 2000,
                                                   Chairman Tanoue testified before the            shift of responsibility for the audit of the
     that require banks to identify                                                                Corporation’s financial statements from
     transactions with prohibited entities and     House Subcommittee on Financial
                                                   Institutions and Consumer Credit on             the U.S. General Accounting Office
     notify OFAC when such transactions are                                                        (GAO) to the OIG would be in line with
     attempted or completed. OFAC rules may        behalf of the FDIC regarding the merger
                                                   of the funds. At that time, legislation         the Chief Financial Officers Act and
     require an institution to reject or freeze                                                    other agencies’ practices. Over the past 5
     the funds involved in these transactions.     (H.R. 3899) that would address the
                                                   merger issue was introduced by House            years, OIG staff members have worked
     Violations of BSA and OFAC record                                                             closely with GAO on the financial
     keeping and reporting requirements            members Roukema and LaFalce.
                                                   However, that legislation was opposed by        statement audit effort, constantly
     expose financial institutions to                                                              learning and assuming increasing
     substantial penalties.                        the American Bankers Association (ABA).
                                                   The ABA took the position that a merger         responsibility for the work. (See later
          The FDIC has developed                   of the funds should not be enacted              write-up on GAO/OIG Financial
     comprehensive examination procedures          without also addressing other deposit           Statement Audit Partnership.) Statutory
     to determine whether financial                insurance reforms. These reforms                language currently contained in Section
     institutions properly implemented BSA         included adjusting the insurance limits         17 of the FDI Act will need to be changed
     provisions and to independently identify      beyond $100,000, indexing the insurance         to give the OIG complete audit
     instances of potential money laundering.      limit to account for the future effects of      responsibility.
     However, our review found that DOS            inflation, capping the insurance fund,
     examiners did not adequately document         and providing rebates of excess funds to        Managing Information Technology
     their BSA work. As a result, we could not     the banking industry.
     always determine the extent to which                                                               Accomplishing information
     DOS examiners reviewed regulated                   Although the proposed legislation          technology (IT) goals efficiently and
     institutions’ compliance with the BSA         was not enacted, the Chairman has               effectively requires significant
     during safety and soundness                   continued to recommend the merging of           expenditures of funds and wise decision-
     examinations. We also found that              the funds and has encouraged debate in          making and oversight on the part of FDIC
     examiners could have improved their           an effort to develop an industry                managers. The Corporation’s 2001 IT
     BSA exam planning by taking full              consensus regarding the best approach to        budget is approximately $185 million.
     advantage of the various BSA information      deposit insurance reform. Because of the

16
     IT is increasingly impacting every         business processes that are most               were not afforded protection by
facet of our lives and is evolving at an        fundamental to the Corporation’s success       computer virus protection software and
ever-increasing pace. The Corporation           and is working to improve these                other instances where the virus
must constantly evaluate technological          processes. At the same time it is seeking      protection software was not fully utilized.
advances to ensure that its operations          to identify when and how technology can        We also noted that software maintenance
continue to be efficient and cost-effective     be used to support these efforts and           could be strengthened and that the virus
and that it is properly positioned to carry     better support the Corporation and its         protection program policies, standards,
out its mission of insuring and                 customers. While these corporate goals         and procedures needed to be updated
supervising the nation’s financial              are meritorious, the challenge will be         and expanded to reflect current risks and
institutions. The capabilities provided by      their effective and efficient                  operations. We communicated this
IT advances (like paperless systems,            implementation.                                information to DIRM’s Information
electronic commerce, electronic banking,             The OIG’s work in the IT area is          Security Staff Director, and he initiated
and the instantaneous and constant              highly varied and includes auditing            corrective action during audit fieldwork
information-sharing through Internet,           specific applications; providing technical     to address some of these issues. The
Intranet, and Extranet sources) also pose       assistance and advice; reviewing IT risk       Corporation agreed with the 12
significant risks to the Corporation and        management, security programs, and             recommendations we made in our audit
the institutions that it supervises and         controls over computer equipment; and          report.
insures. Many of these risks are new and        examining IT management, planning, and              It is important to note that the
unique. Therefore, solutions to address         budgeting issues. But all of this work has     effectiveness of the FDIC’s computer
them are sometimes difficult and, in            a common, significant feature – high           virus protection program was
many cases, without precedent.                  impact. A summary of our extensive             demonstrated during the global attack of
     In addition to technological               work in the IT area during the reporting       the “I Love You” virus. DIRM was able to
advances, the Corporation must continue         period follows.                                develop and institute firewall filters
to respond to the impact of new laws,                                                          attuned to viral characteristics it had
regulations, and legal precedents on its        Corporation’s Virus Protection                 identified, and, because of the early
activities. Management of IT resources          Program Is Generally Effective                 warning, the FDIC fared better than
and IT security have been the focus of                                                         many other federal agencies.
                                                     We conducted an audit to review the
several significant legislative acts, such as
                                                FDIC’s computer virus protection
the Government Performance and                                                                 Audit of the FDIC’s IT Risk
                                                program and assess the Corporation’s
Results Act, the Clinger-Cohen Act, and                                                        Management Program Identifies
                                                ability to identify, contain, and clean
the Paperwork Reduction Act. In
                                                computer viruses. The Division of              $2.2 Million in Funds Put to Better
addition, pursuant to the National
Defense Authorization Act, which
                                                Information Resources Management’s             Use
                                                (DIRM) Information Security Staff had               We conducted an audit of the
contains legislation related to IT security,
                                                reported 45,000 FDIC computer virus            Corporation’s IT risk management
the OIG will conduct annual evaluations
                                                incidents during the first three quarters      program. This program is designed to
of the FDIC’s information security
                                                of 1999. A computer virus is a specially       identify applications that process
programs and practices. Also, the Office
                                                designed computer program that has the         sensitive corporate data and perform
of Management and Budget (OMB) has
                                                ability to replicate itself and modify other   independent security reviews (ISR) to
incorporated changes to its guidance on
                                                programs. This program may contain             determine an application’s ability to
managing IT activities (OMB Circular A-
                                                malicious instructions that disrupt a          safeguard the confidentiality and
130).
                                                computer’s proper operation or destroy         reliability of data. During the audit of the
     According to the Corporation’s             programs and other data stored in a            FDIC’s 1999 financial statements, the
Strategic Plan, simply applying                 computer.                                      GAO issued a management letter
technology solutions will not solve                                                            reporting that the FDIC had not fully or
                                                    We concluded that the FDIC’s
existing business problems. The FDIC’s                                                         adequately completed these ISRs and
                                                computer virus protection program was
program areas must first identify where                                                        security plans.
                                                generally effective in minimizing the
current processes can be improved, and
                                                exposure from computer virus                        The objective of our audit was to
then where technology can be applied to
                                                contamination. However, we identified          determine the effectiveness of the
facilitate those processes and ultimately
                                                possible improvements to further reduce        program in addressing the security-
accomplish the corporate mission. The
                                                the probability of computer virus              related requirements contained in OMB
Corporation is focusing its efforts on key
                                                contamination. For example, we                 Circular A-130, Appendix III. We focused
                                                identified several mission-critical and        audit resources to quickly research and
                                                operationally significant computers that
                                                                                                                                              17
     identify actions needed to resolve issues    day-to-day support activities provided by   DIRM budgeted about $16.6 million for
     through a collaborative effort with DIRM.    DIRM to operate the Corporation’s           PC/LAN equipment. As of December 1,
     Our report concluded that although the       approximately 470 business applications.    2000, $8.1 million (about 49 percent)
     FDIC’s program compared favorably to         Our audit evaluated the manner in which     had been spent for laptops and another
     other agencies’ programs and complied        DIRM manages the FDIC’s application         $2.2 million (about 13 percent) in laptop
     with OMB A-130 requirements, the             maintenance expenditures, including the     purchases were planned. The FDIC
     program was not yet fully effective in       division’s processes for planning,          maintains a major investment in laptops,
     controlling risks to the Corporation’s IT    categorizing, and administering             and, because of the portability and
     infrastructure.                              maintenance expenses.                       vulnerability of laptops, some of which
          We reported that recommended                 DIRM has taken actions to improve      contain sensitive data, the FDIC needs
     program enhancements, particularly           the manner in which it manages IT           strong inventory management controls.
     those that related to the issues raised by   expenditures classified as application            To assist DIRM in its responsibilities,
     GAO, could be implemented with               maintenance. However, opportunities for     in April 1997 DIRM entered into a $2.5
     adjustments to the management of the         further improvement exist. Specifically,    million contract with Innovative Logistics
     program. By refining its process for         DIRM needs to better categorize and         Techniques, Inc., (INNOLOG) to staff and
     determining high-risk applications, DIRM     define application maintenance              operate DIRM’s distribution centers and
     could reduce the number of major             expenditures to enhance the accuracy of     maintain an inventory management
     applications requiring an ISR, thus          cost data and strengthen IT budgeting       system to assist DIRM in tracking the
     reducing program costs by approximately      and reporting. Additionally, senior DIRM    FDIC’s inventory of computer equipment.
     $2.2 million over a 3-year risk              management can enhance its                  In July 1999, DIRM entered into another
     management cycle (funds put to better        administration of IT maintenance by         contract worth $4.1 million with
     use). We determined that DIRM could          implementing a process to monitor and       INNOLOG. Under this contract,
     also significantly enhance program           evaluate key components of application      INNOLOG is responsible for the entire
     effectiveness by (1) scheduling and          maintenance expenditures.                   life cycle management of IT assets and
     completing ISRs for the general support           We made four recommendations that      the continued staffing of the two
     systems early in the risk management         were based on generally accepted            distribution centers in the Washington,
     cycle, (2) expanding the scope and depth     industry standards, FDIC-specific needs,    D.C., area. Further, the contractor is to
     of the application ISRs, and (3)             and sound IT management principles          conduct physical inventories of IT assets
     developing a tracking process capable of     espoused in key legislation such as the     at the distribution centers, FDIC
     efficiently resolving corrective actions.    Clinger-Cohen Act of 1996 and the           headquarters, regions, and field sites as
     Additionally, DIRM could minimize            Government Performance and Results          required by DIRM. INNOLOG is also
     security risks corporate-wide by ensuring    Act. We made these recommendations          responsible for supporting DIRM’s
     that DIRM security personnel review and      not only to encourage greater               Logistics Management Section, a unit
     approve the security design of all major     accountability but also to improve          involved with the acquisition, receipt,
     applications before they are placed into     DIRM’s ability to plan, estimate, and       and management of the FDIC’s IT assets.
     production. We made nine                     justify application maintenance             The Logistics Management Section also
     recommendations to improve the               resources. The Corporation agreed to        coordinates the distribution of IT assets
     administration of the program, and the       pursue action on all recommendations.       to all sites and maintains a nationwide
     Corporation agreed to take action to                                                     inventory management system. As of July
     address our concerns.                                                                    15, 2000, the number of laptops recorded
                                                  Controls over the FDIC’s Laptop             in the system was 4,358. However, the
                                                  Computer Inventory Need                     control weaknesses we identified cast
     The FDIC Can Improve Application
                                                  Strengthening                               doubt on the accuracy of that number.
     Maintenance Budgeting
                                                       Establishing and maintaining                During the period of our audit, our
          During the reporting period we
                                                  effective accountability controls over      Office of Investigations’ special agents
     completed a review of the FDIC’s
                                                  computer-related equipment has been a       were investigating the apparent theft of
     maintenance budgets for application
                                                  continuing problem at the FDIC. During      approximately 65 laptop computers. As of
     systems. The FDIC had designated
                                                  the reporting period we completed an        March 31, 2001, the agents had
     approximately $33.8 million, or 17
                                                  audit to determine whether the FDIC was     recovered 33 laptops. (See related write-
     percent, of its $202 million IT budget for
                                                  effectively controlling its growing         up in the Investigations section of this
     2000 as application maintenance.
                                                  inventory of laptop computers. For 2000,    report.)
     Application maintenance represents the



18
      Our audit                                             assist with the claims           assist the FDIC in many areas, including
concluded that                                              function at a cost of $8         IT, legal matters, property management,
improvements                                                million.                         loan servicing, asset management, and
were needed in                                                                               financial services.
                                                            Our audit concluded that
DIRM’s internal                                                                                   Maintaining a strong system of
                                                            DRR and DIRM have
controls over the                                                                            internal controls and effective oversight
                                                 adequately planned for reduced Claims
FDIC’s inventory of laptop computers.                                                        of contracting activities is critical to the
                                                 and RLS-related staffing levels that will
Specifically, DIRM did not ensure that                                                       FDIC’s success. The Corporation has
                                                 result from corporate downsizing.
incompatible duties were properly                                                            taken a number of steps in this regard,
                                                 Regarding training, we identified
segregated, and FDIC and contractor                                                          such as providing training, making
                                                 enhancements that we believe could
employees were misusing a “virtual”                                                          revisions to the Acquisition Policy
                                                 improve DRR and DIRM’s training
room called the Hubstore by assigning                                                        Manual, and conducting a Contractor
                                                 program. DRR and DIRM officials
missing or unaccounted for laptops to the                                                    Oversight Summit and a Contracting Best
                                                 agreed with the actions we
Hubstore instead of promptly reporting                                                       Practices conference. It has added a goal
                                                 recommended to enhance training.
the laptops as missing. Also, we found                                                       regarding contractor oversight to its
that no recent corporate-wide inventory         • The Corporate Human Resources              Annual Performance Plan, which is
of laptop computers had been performed.           Information System (CHRIS) is an           formulated in accordance with the
As a result of these weaknesses, laptops          integrated human resources                 Government Performance and Results
were vulnerable to theft without                  management system. The FDIC plans          Act. The FDIC plans to continue its work
detection. We made four                           for CHRIS to ultimately provide a          in these areas.
recommendations to address control                system to support all corporate human
weaknesses, and management agreed to              resources functions. We determined              Projections of year 2001 non-legal
take action on all of them. Additionally,         that the CHRIS project team                contract awards and purchases total
because our audit raised concerns                 successfully implemented Release I of      2,000 actions valued at approximately
regarding INNOLOG’s performance, we               CHRIS in the FDIC’s Atlanta and            $360 million. One of the most active
are now pursuing additional work                  Memphis regions. In doing so the           areas of contracting in the Corporation
designed to address the contractor’s              project team managed costs effectively,    regards IT. As of March 31, 2001, there
billings and services.                            gained user acceptance, and                were more than 226 active information
                                                  implemented Release I in a timely          resources management contracts valued
                                                  manner. However, we noted that the         at approximately $277 million that had
Other IT Work                                                                                been awarded in headquarters.
    Additional IT-related work during the         security features of Release I did not
                                                  meet the FDIC’s security standards for     Approximately $89 million of this
period included the following:                                                               expenditure authority for active
                                                  password management and system
• We audited the staffing and training            auditing and would require manual          contracts had been spent and $188
  that support the FDIC’s Receivership            intervention to reduce risk to an          million remained to be used as of that
  Liability System (RLS) because of               acceptable level. Because the project      time.
  impending reductions in the number of           team was in the process of developing          Highlights of some audits we
  RLS-knowledgeable claims personnel              compensating controls to reduce the        performed during the current reporting
  resulting from planned corporate                security risk to a reasonable level and    period follow.
  organizational downsizing. The Division         because our office would continue to
  of Resolutions and Receiverships’               monitor subsequent releases of CHRIS,
  (DRR) Dallas Field Operations Branch
                                                                                             Audits of Two Contracts Related to
                                                  we did not make recommendations in         the General Services Administration
  (DFOB) is responsible for processing            this report.
  claims from depositors and general                                                         Program Yield $3.4 Million in
  creditors of failed financial institutions.                                                Questioned Costs
  DFOB Claims personnel attend bank             Ensuring Sound Controls and                      During this reporting period, two
  closings, determine deposit insurance,        Oversight of Contracting Activities          audits (further discussed below) were
  identify those depositors with balances       and Agreements                               performed of billings by contractors that
  in excess of deposit limitations and              The private sector provides goods        the FDIC selected using the General
  general creditors, perform payouts,           and services to the Corporation as           Services Administration’s (GSA) Federal
  track claims, and perform customer            needed through contracting to assist the     Supply Schedule (FSS) procurement
  service functions. In conjunction with        FDIC accomplish its mission. Contractors     program. Under the FSS program, GSA
  DIRM, DRR developed RLS as a tool to                                                       prescreens and selects contractors based


                                                                                                                                            19
     on certain criteria. This program may          OIG Questions $1.7 Million                    expenses, for unsupported time charges,
     also establish hourly rates for various                                                      and for labor categories that were either
                                                    Regarding Administration of
     labor categories based on employees’                                                         charged at higher rates than allowed or
     experience and education. The FDIC
                                                    Employee Benefit Plans for Failed             for employees who were not qualified for
     selects contractors from the GSA FSS to        Financial Institutions                        the rates charged.
     streamline the contracting process and              The OIG audited American Pension
     reduce lead time and administrative            Management’s (APM) administration of
                                                                                                  Final Evaluation Completed for MCI
     costs.                                         failed financial institution employee
                                                                                                  Voice and Video Services Contract
                                                    benefit plans for the FDIC. Based on the
     $2.3 Million of QSS Group’s Information                                                           The Office of Congressional
                                                    audit results, the OIG recommended that
     Technology Billings Questioned                                                               Relations and Evaluations completed the
                                                    the FDIC disallow $1,724,213 that APM
           We questioned a total of $2,305,507      inappropriately withdrew from litigation      final evaluation in a series of evaluations
     of $21,906,974 in the QSS Group’s              settlement award accounts or billed for       associated with the FDIC’s Voice and
     invoices that we reviewed, because the         services that it could not support.           Video Long Distance Services Contract
     billings were not in accordance with the                                                     (Contract) with MCI WorldCom, Inc. This
                                                         Specifically, APM did not provide the    evaluation addressed whether the FDIC
     contract. Of that amount, we questioned
                                                    FDIC with records necessary to complete       effectively and efficiently monitored the
     $2,230,433 in labor charges because the
                                                    audits of the Goldome and Meritor             Contract.
     contractor billed (1) personnel at higher
                                                    pension plans. Moreover, APM did not
     labor rates than justified by their                                                               We saw evidence that oversight
                                                    always properly account for and
     qualifications, (2) labor costs to contracts                                                 managers reviewed all invoices and
                                                    distribute litigation settlement awards for
     with available funds that were allocable                                                     Contract modifications (and the invoices
                                                    Goldome, Centrust, and Amerifirst. We
     to other contracts that had reached their                                                    were processed timely), consistently
                                                    identified $305,011 in questionable
     funding caps, (3) unapproved                                                                 identified invoice errors, and monitored
                                                    transfers, withdrawals, and lost interest
     subcontractor markups, and (4)                                                               day-to-day telecommunication
                                                    from litigation settlement award accounts
     unallowable administrative labor charges.                                                    operations. However, we concluded the
                                                    and at least $77,439 in litigation
     Additionally, we identified other matters                                                    FDIC could have done more to: (1)
                                                    settlement award funds that APM had not
     concerning QSS’s use of different labor                                                      ensure MCI’s compliance with a Contract
                                                    distributed to award participants or
     mixes from those that were proposed,                                                         price warranty before executing option
                                                    returned to the FDIC. In addition, we
     QSS’s “best customer rate” certification                                                     years to the Contract. We concluded that
                                                    questioned $1,419,202 that APM billed
     made to GSA, the physical presence of                                                        the FDIC might have achieved lower
                                                    the FDIC for services performed for the
     QSS personnel, and the validity of QSS’s                                                     pricing earlier in the Contract had the
                                                    Goldome, Meritor, Centrust, and
     off-site labor rates. Management agreed                                                      FDIC more closely monitored the price
                                                    AmeriFirst failed financial institutions
     with our recommendations.                                                                    warranty; (2) assess the impact and
                                                    pension plans because APM did not
     $1 Million of ACS Billings Questioned          provide support for those billings.           appropriateness of a Contract
                                                                                                  modification to institute an intrastate
           The OIG questioned $1,064,364 of
                                                                                                  surcharge. As a result, the FDIC paid
     the $17.8 million that the FDIC paid to        $76 Thousand in Architects’ Billings          $1.17 million in surcharges over the first
     ACS Government Solutions Group (ACS)           for Renovations Questioned                    3 years of the Contract that were not
     primarily for professional services billed.          The OIG audited the professional fee    supported by tariff and risked paying
     Of that questioned amount, the majority        billings that The Ratcliff Architects         almost $850,000 more in surcharges
     of it ($986,191, or 93 percent) was for        (Ratcliff) submitted to the FDIC for          during the final 2 years of the Contract;
     ACS employees who did not meet the             services performed under a contract to        and (3) review invoices more effectively
     education and/or experience                    provide for architectural and engineering     and efficiently.
     requirements represented in its FSS            services associated with the renovation of
     contract with GSA. In addition, we                                                                The FDIC’s Division of
                                                    the FDIC’s San Francisco Regional Office.
     questioned $75,587 for one employee                                                          Administration and DIRM have taken
     who disclosed to ACS on his employment             Of the $607,730 that Ratcliff billed      actions that should improve the
     application that he was a convicted felon.     the FDIC, we questioned $76,009, or 13        efficiency of the invoice review process
     The FDIC’s Acquisition Policy Manual           percent, because the fees Ratcliff billed     and address the contract oversight
     and the Code of Federal Regulations (12        did not conform with the contract and,        coordination and communication issues
     C.F.R. 366.4) both prohibit a convicted        therefore, are unallowable. The               identified.
     felon from performing services under an        unallowable charges included fees that
     FDIC contract.                                 were: incurred outside the contract
                                                    period, for indirect personnel and


20
Contractor Background                         has a financial interest in the sound                The first PNC-related report
                                              operation of these securitizations. DRR is       performed during this semiannual
Investigation Process Audited
                                              responsible for resolving failed                 reporting period presented the results of
     After reviewing the contractor           institutions and managing/liquidating            the OIG’s audit of the claims made to the
background investigation process, the         remaining assets at the maximum price            credit enhancement reserve funds for
OIG concluded that the process for            in an effective, timely, and efficient           securitization transactions 1992-03 and
requesting, tracking, and documenting         manner. The OIG helps ensure that the            1992-04. The OIG concluded that PNC
contractor background investigations was      FDIC’s interests in securitizations are          made claims to the reserve funds that
improved by the implementation of             adequately protected and that the related        were deemed to be unallowable and
internal control procedures and a             entities are performing adequately under         unsupported. These claims included
database tracking system during 1999.         the various agreements.                          principal and interest advances on
However, contractor background                                                                 certain loans that had also been claimed
investigation policies did not consistently        By way of background, during 1999
                                              and 2000 the OIG performed audits of             by Ryland. In total, the OIG identified
cover all contractor personnel. Further                                                        $441,764 in questioned costs. Of that
action was needed to ensure compliance        nine securitization transactions serviced
                                              by Ryland Mortgage Company (Ryland)              amount, $401,309 related to unallowable
with applicable laws and regulations, and                                                      costs and $40,455 related to unsupported
we made recommendations to strengthen         and issued nine reports with total
                                              combined questioned costs of $7.1                costs. Also, $187,248 of the total
the Corporation’s process for contractor                                                       questioned costs related to previous
background investigations. The                million. On May 16, 1998, PNC acquired
                                              the servicing rights for securitizations         errors by Ryland.
Corporation agreed to take actions to
address our concerns.                         previously serviced by Ryland. Because               As a result of the findings of this
                                              of the numerous errors disclosed in the          audit, a second audit was initiated to
OIG Continues to Participate in the
FDIC’s Contractor Oversight Project              OIG Provides Information on Contractor Overpayments to
     Continuing the OIG’s involvement in         House Committee on Government Reform
the Corporation’s Contractor Oversight            During this reporting period we responded to a request from Congressman Dan
Project, on January 10, 2001, the OIG         Burton, Chairman of the House Committee on Government Reform. The Chairman had
took part in a Contract Oversight Best        asked Offices of Inspector General (OIG) to provide him with examples of significant
Practices Conference, one of several in a     overpayments to contractors identified in the past 3-5 years. Last year the Chairman
series sponsored by the Office of Internal    introduced legislation that would have required agencies to conduct “recovery auditing”
Control Management (OICM). The                for certain contracts as a means to recover contractor overpayments. He intends to
conference was attended by a cross-           reintroduce the legislation during this session of the Congress.
section of corporate staff whose work is
related to contracting. The OIG is also           Our response to the Chairman contained a listing of audit and evaluation reports
participating in another OICM-sponsored       issued during the past 5 years (and also provided copies of each report) in which we
initiative to evaluate project management     identified overpayments totaling $25,408,118. Additionally, we briefly explained the FDIC
courses that could be included in the         OIG’s work related to an extensive program of certified public accountant (CPA) audit-
oversight manager curriculum. The OIG         related reviews of contractors managed by the Resolution Trust Corporation’s (RTC) Office
supports the efforts of OICM in trying to     of Contractor Oversight and Surveillance. At RTC’s sunset, the FDIC OIG assumed
improve contract oversight within the         responsibility for completing these reviews and also for working with FDIC management
Corporation, and we will continue to          to evaluate the effective resolution of more than 1,000 open recommendations involving
coordinate with OICM and other FDIC           substantial questioned costs resulting from these CPA reviews. As a result, the FDIC OIG
divisions on this significant initiative.     issued 91 reports identifying $25 million in monetary exceptions for recovery. Further, as
                                              a result of the joint initiative to resolve the open recommendations, FDIC management
                                              disallowed or sought to recover more than $120 million.
Over $500 Thousand in Duplicate
Advances Claimed by Securitization
Transaction Servicer
                                              Ryland audit reports and discussions                      1
                                                                                                          A securitization involves selling securities that are primarily
     During this reporting period we
                                              with DRR management, the OIG decided             collateralized by various types of real estate loans to investors. To
conducted two audits related to                                                                sell large amounts of loans most efficiently and obtain the greatest
                                              to perform an audit of two of the Ryland
securitization transactions1 that are                                                          financial benefit, receivership loans are pooled together as
                                              securitizations that transferred to PNC.         collateral to back securities sold to investors in the secondary
serviced by PNC Mortgage (PNC); DRR
                                                                                               market. This process results in mortgage-backed securities, or
                                                                                               pass-through certificates.



                                                                                                                                                                            21
     review additional securitization              Funding, (2) Insured Depository               recommendations from Results Act
     transactions serviced by PNC to see           Institutions Are Safe and Sound, (3)          reviews would be included in each
     whether additional duplicate advances         Consumers’ Rights Are Protected and           subsequent semiannual report. The
     were claimed by PNC for all eight             FDIC-Supervised Institutions Invest in        Congress attaches great importance on
     securitization transactions that it           Their Communities, and (4) Recovery to        effective implementation of the Results
     acquired from Ryland. During the audit,       Creditors of Receiverships Is Achieved.       Act and believes that Inspectors General
     the OIG identified $96,359 of disallowed      Through its annual performance reports,       have an important role to play in
     questioned costs related to four of the       the FDIC is accountable for reporting         informing agency heads and the Congress
     eight securitizations.                        actual performance and achieving these        on a wide range of issues concerning
          Ongoing audit work is covering such      strategic results, which are closely linked   efforts to implement the Results Act. We
     issues as reviewing: the contractor that      to the major issues discussed in this         believe the congressional guidance
     developed the GENESYS and ALERT               semiannual report.                            represents an appropriate direction for
     systems, both cost recovery and                    The Corporation has made                 all Offices of Inspector General.
     improvement of FDIC’s controls over           significant progress in implementing the
     securitization transactions, the Legal        Results Act and will continue to address      OIG’s Results Act Review Plan
     Division’s internal process for reviewing     the challenges of developing more                  The FDIC OIG is fully committed to
     and approving fee bills (which is a follow-   outcome-oriented performance measures,        taking an active role in the Corporation’s
     up to a July 1998 audit), and                 linking performance goals and budgetary       implementation of the Results Act. We
     modifications to a construction contract.     resources, and establishing processes to      have developed a review plan to help
                                                   verify and validate reported performance      ensure that the Corporation satisfies the
                                                   data. The FDIC is committed to fulfilling     requirements of the Results Act and
     Establishing Goals and Measuring
                                                   both the requirements of the Results Act      maintains systems to reliably measure
     Results
                                                   and congressional expectations that the       progress toward achieving its strategic
          The Government Performance and           performance plans and reports clearly         and annual performance goals. Our
     Results Act (Results Act) of 1993 was         inform the Congress and the public of the     review plan consists of the following
     enacted to improve the efficiency,            results and outcomes of the FDIC’s major      three integrated strategies:
     effectiveness, and accountability of          programs and activities, including how
     federal programs by establishing a system                                                   • Linking Planned Reviews to the
                                                   the agency will accomplish its goals and
     for setting goals, measuring performance,                                                     Results Act. We will link planned
                                                   measure the results.
     and reporting on accomplishments.                                                             reviews to corporate strategic goals and
     Specifically, the Results Act requires                                                        annual performance goals and provide
                                                   OIG Formulates Results Act Review               appropriate Results Act coverage
     most federal agencies, including the
     FDIC, to prepare a strategic plan that
                                                   Plan                                            through audits and evaluations. As part
     broadly defines the agencies’ mission,             On October 7, 1998, the                    of this strategy, one of the goals of our
     vision, and strategic goals and objectives;   Congressional House Leadership sent a           planning effort this year is to align our
     an annual performance plan that               letter to the Inspectors General of 24          audit work more closely with the
     translates the vision and goals of the        executive agencies requesting that they         Corporation’s strategic plan and
     strategic plan into measurable annual         develop and implement a plan for                performance goals.
     goals; and an annual performance report       reviewing their agencies’ Results Act
                                                                                                 • Targeted Verification Reviews. We will
     that compares actual results against          activities. The Results Act review plan
                                                                                                   maintain a program of independent
     planned goals.                                would be submitted as part of the OIG’s
                                                                                                   reviews to evaluate the adequacy and
                                                   semiannual reports to the Congress (and
          The Corporation’s strategic plan and                                                     reliability of selected information
                                                   updated at least annually thereafter) and
     annual performance plan lay out the                                                           systems and data supporting FDIC
                                                   would examine (1) agency efforts to
     agency’s mission and vision and                                                               performance reports. The OIG has
                                                   develop and use performance measures
     articulate goals and objectives for the                                                       developed a standard work program to
                                                   for determining progress toward
     FDIC’s three major program areas of                                                           conduct these evaluations.
                                                   achieving performance goals and program
     Insurance, Supervision, and Receivership      outcomes described in their annual            • Advisory Comments. We will continue
     Management. The plans focus on four           performance plan and (2) verification           our practice of providing advisory
     strategic results that define desired         and validation of selected data sources         comments to the Corporation regarding
     outcomes identified for each program          and information collection and                  its update or cyclical preparation of
     area. The four strategic results are: (1)     accounting systems that support Results         strategic and annual performance plans
     Insured Depositors Are Protected from         Act plans and reports. Findings and             and reports.
     Loss Without Recourse to Taxpayer

22
     Examples of OIG findings and            Quarter 2000. Overall, documentation               DOF will also begin requiring
recommendations during the reporting         provided by Results Act divisional            Division and Office Directors to certify
period that are linked to Results Act        coordinators supported the data included      the completeness and reliability of their
issues and concepts include our work on      in the FDIC Quarterly Performance             annual performance data. These
the FDIC’s Application Maintenance           Report - 2nd Quarter 2000 for 15 of the       certifications will be consolidated into an
Budgets, where we offered a series of        16 goals, but there was no 2nd quarter        overall statement on data quality to be
recommendations designed to improve          data for one goal. During our interviews      included in the annual Program
DIRM’s management of application             Results Act divisional coordinators           Performance Report.
maintenance expenditures. Our                provided adequate explanations of
recommendations were based on                processes in place to verify and validate     OIG Reviews Corporate Results Act
generally accepted industry standards,       performance data. Nevertheless, divisions     Plans and Reports
FDIC-specific needs, and sound IT            could better document those processes.
                                                                                                During this reporting period the OIG
management principles espoused in key            Moreover, divisions relied on systems     also reviewed and provided advisory
legislation, such as the Clinger-Cohen Act   controls as one means for verifying data,     comments to management on the FDIC’s
of 1996 and the Results Act. These           but Results Act divisional coordinators       2001 Performance Plan and 2000
recommendations not only encourage           did not have documentation to support         Program Performance Report. The
greater accountability but also improve      those controls and some referred the OIG      purpose of our reviews was to provide
DIRM’s ability to plan, estimate, and        to DIRM. We also found that divisions         observations and suggestions for
justify application maintenance.             were beginning to use surveys to obtain       enhancing the Corporation’s performance
                                             performance data, but coordination            plan and report based on our knowledge
OIG Reviews FDIC Data Verification           among divisions in developing these           and OIG work related to the Results Act.
and Validation Processes                     surveys could be better.                      Many of our suggestions have been
     The Office of Congressional                 Finally, as a response to a request       adopted by the Corporation. In addition,
Relations and Evaluations evaluated the      from DOF, we researched which                 we reviewed the plan and report to
degree to which FDIC program offices         approaches other federal agencies were        determine if they were in compliance
were verifying and validating information    taking to develop an overall statement on     with the Results Act and related OMB
presented in FDIC Results Act                data verification and validation in annual    guidance. For future annual cycles the
performance reports. The intent of this      performance reports.                          OIG will continue to advise management
review was to evaluate the corporate-                                                      regarding the Corporation’s Results Act
                                                   As a result of our work, DOF agreed
wide processes and practices used to                                                       plans and reports undergoing
                                             to:
verify and validate performance data.                                                      development or revision.
                                             • Emphasize to Divisions and Offices in
     During our review we provided                                                              The OIG will continue to develop
                                               each quarter’s request for performance
interim observations and comments to                                                       and refine its integrated oversight
                                               results that documentation should be
the Division of Finance (DOF) on the                                                       strategy so that the OIG’s Results Act-
                                               retained that indicates that verification
Corporation’s 2001 Annual Performance                                                      related efforts fully conform to the spirit
                                               and validation procedures have been
Plan as it was being developed. Our                                                        and intent of the Act. We plan to
                                               applied.
comments addressed the completeness of                                                     continue to work with the Corporation to
the descriptions for verifying and           • Encourage Results Act divisional            improve the FDIC’s performance
validating data related to performance         coordinators to work with DIRM              measurement and reporting through our
goals. Improvements were made to the           officials to identify and confirm the       audits, evaluations, and management
plan as a result of our comments and           existence and reliability of the            advisory reviews and analyses. The OIG
increased attention to the descriptions        information systems controls relied         will also continue to monitor and review
on the part of DOF.                            upon for verifying and validating           legislation proposed in the Congress to
     The second phase of the review            performance data.                           amend the Results Act and will actively
focused on evaluating the verification and                                                 participate to refine appropriate OIG
                                             • Include a discussion of survey tools in     Results Act roles, responsibilities, and
validation procedures used for 16              its performance reporting guidance and
performance goals reported on by the                                                       activities through the President’s Council
                                               state that Divisions and Offices consult    on Integrity and Efficiency and the
Division of Supervision, DRR, Division of      with the Division of Research and
Insurance, and Division of Compliance                                                      interagency groups it sponsors.
                                               Statistics when developing surveys to
and Consumer Affairs in the FDIC               collect data.
Quarterly Performance Report - 2nd



                                                                                                                                         23
                                                  to identify skill imbalances and project             Following several years of
     Addressing Human Capital Issues              future needs. Also of importance is that        downsizing, the Corporation is now
          Since 1994, as the work emanating       the Corporation’s human capital strategy        focusing on the efficiency of its business
     from the banking and thrift crises has       and workforce planning system are               processes. The banking industry is
     declined and continued consolidation of      directly linked to the FDIC’s overall           placing increased scrutiny on the
     the financial services industry has          strategic and performance plans.                operating expenses of the Corporation. In
     occurred, the FDIC has accordingly                The FDIC, as well as other federal         addition, the FDIC can no longer count
     reduced its workforce substantially. The     agencies, may find it necessary to              on savings from office closings to offset
     workforce has fallen from a high of about    modernize its human capital policies and        the projected increases in personnel
     15,600 in mid-1992 to 6,429 as of March      practices by placing additional focus on        compensation costs.
     31, 2001. In addition to reductions in the   employees and aligning its “people                   The Corporation is taking steps to
     size of the workforce, as the                policies.” Designing, implementing, and         increase emphasis in this area. Several
     Corporation’s needs have changed,            maintaining effective human capital             initiatives are in progress to better
     employees have been relocated to best        strategies are critical to improving            understand what the various business
     serve those changing needs.                  performance and accountability.                 processes and activities within the FDIC
          The FDIC has faced staffing                  In our last semiannual report, we          cost, how they can be made more
     shortages in certain critical skill areas    reported that the Corporation was               efficient, and how they compare to
     owing to the loss of such a high number      working with a consultant to identify           private and public sector entities.
     of staff and strict prohibitions on hiring   issues and define a process for developing          The OIG is fully supportive of this
     from 1992 through 1997. Additionally,        a human capital strategic plan. To update       endeavor. Managers must have current
     through the use of employee buyouts,         that status, we have been told that a draft     and valid cost information to sufficiently
     early retirements, and other downsizing      report has been received from the               assess business operations. Further,
     activities, the Corporation has lost a       consultant, but it was undergoing               goods and services should only be
     number of highly experienced managers        revision as of the close of our reporting       acquired when a business case exists to
     and senior technical experts. The            period. The Corporation informed us that        support doing so. Our reviews have
     Corporation predicts that approximately      it has begun drafting a human capital           shown, and the Corporation has
     one of every six remaining FDIC              strategic plan. The OIG will continue to        acknowledged, that, at times, these two
     employees will be eligible to retire by      monitor the progress of the Corporation’s       basic tenets of sound management are
     year-end 2003. The Corporation must          efforts in this area.                           not always in place or followed.
     continue to conserve and replenish the
     institutional knowledge and expertise             The OIG is also conducting a review             Based on the Chief Financial
     that has guided the organization over the    of DOS’s management of human capital            Officer’s request, the OIG has taken a
     past years. Hiring and retaining new         and another related to DIRM as well as a        key role in looking at the cost of
     “federal” talent will be extremely           review of field office costs and utilization.   providing administrative services, as
     important, particularly given the            Additionally, our work with DOS in its          discussed in more detail below. Similarly,
     competitive job market and lure of the       process redesign project may lead to            we are participating in task groups
     private sector.                              changes in human capital strategies for         formed by DOS as part of its process
                                                  DOS examination and other staff.                redesign efforts to evaluate how it carries
          Another consideration will be                                                           out the supervision and insurance
     determining where corporate employees                                                        functions. We have included several
     will be housed over the long-term.           Containing Costs and Assessing
                                                                                                  reviews in our 2001 Audit and
     Millions of dollars are spent on leases      Business Processes
                                                                                                  Evaluation Plan that will assess
     throughout the country. After considering         The Corporation’s budget outlook for       processes, acquisitions, and contracts
     the many changes in the financial            2002 is challenging, because at present         and focus on increasing efficiency and
     industry, trends such as telecommuting,      there are not sufficient reductions to          ensuring that the Corporation is getting
     the increased use of technological tools     offset the increase in salaries and             maximum value for its investments and
     to perform work, and continued attrition,    benefits. Accordingly, 2001 is an               expenditures.
     the Corporation may need to relocate or      important year for identifying ways to
     establish new work sites and capabilities    contain and reduce costs, either through
     for a portion of its staff over time.        more careful spending or by assessing
          To implement a successful human         and making changes in business
     capital framework, organizations need        processes that increase efficiency.
     information systems that allow managers


24
OIG and OICM Identify Possible               OIG Issues Results of Two New Congressional Reporting Requirements
Efficiencies for Administrative
                                                 During the reporting period the OIG completed its work related to two new
Services Functions                           congressional reporting requirements. Specifically, we responded to a new law requiring
     During the reporting period the OIG     that Inspectors General conduct quarterly reviews of their agencies’ payments of District
joined with OICM and completed a study       of Columbia water and sewer bills. We issued a letter to the Appropriations Committees
of the administrative services functions     of the House and Senate advising them that the FDIC had paid its account timely during
throughout the Corporation to assist         the year 2000, with one minor exception. The FDIC did not incur any late fees related to
FDIC management in its effort to             such payments.
improve operational efficiencies and
reduce costs. The first phase of the study       Additionally, we informed various members of the House and Senate Appropriations
focused on those services provided by the    Committees, Subcommittees on Treasury, Postal Service and General Government, and
Division of Administration (DOA),            members of the Senate Governmental Affairs Committee of the results of another
namely personnel, training, acquisition,     mandated review. We reported that our work identified no instances of the FDIC
and facilities management. We did not        collecting personally identifiable information about individuals who access the FDIC’s Web
identify significant instances of            sites. It is the FDIC’s policy that no Web product may be developed to track the activities
duplication between DOA and other            of users over time and across different Web sites. In addition, we identified no
divisions. However, we noted that            agreements between the FDIC and third parties to collect information regarding
divisions and offices other than DOA had     individuals’ access to Internet sites or viewing habits.
a large number of staff devoted to
complementary activities, and it             • Extent of staff devoted to certain
appeared that opportunities to improve         personnel functions, and
efficiency existed.
                                             • Long-term effect that technology will
     As result of our observations from        have on workload and staffing needs.
Phase I, management requested that we
focus on the Corporation’s training and           In addition to ongoing work to
personnel functions in Phase II of the       address some of these issues, FDIC
study to identify what efficiencies could    management hired a contractor to
be gained from (1) eliminating duplicate     further assess DOA’s training and
or non-critical functions based on           personnel areas. This contracted work is
workload or benchmarking, (2) changing       largely based on the work that was done
the level and types of services provided     and issues we raised during Phase II of
or how they are provided, and (3) fully      the study. In addition, the contractor will
utilizing information technology.            assess the impact of existing
                                             administrative activities in other
     During Phase II we identified a         divisions and offices. After reviewing
number of issues for management’s            these functions, the contractor will
consideration and further examination        recommend efficiencies and ways to
that could lead to gains in operational      reduce costs in these areas.
efficiency, such as:
                                                  Additionally, we will join with OICM
• Increase efficiency in the Performance     in another review focusing on the level of
  Improvement System,                        resources currently allocated to the
• Coordination of regional training          Strategic Planning, Core Staffing, and
  activities,                                Budget Formulation processes throughout
                                             the Corporation to identify areas for
• Cost and benefit data provided to          possible process improvements. At the
  clients before they initiate training or   request of the Chief Financial Officer, the
  organizational development projects,       OIG will also be reviewing the
• Utilization of computer based              Corporation’s internal control and
  instruction,                               internal review programs. We will discuss
                                             our results in an upcoming semiannual
• Ratio of personnel employees to total      report.
  employees,


                                                                                                                                           25
                     GAO/OIG’s Successful Financial Statement Audit
                                 Partnership Continues

         In 1996 the FDIC OIG and U.S. General Accounting Office (GAO) management
     formed an important partnership. Its primary goal was to train certain OIG staff
     to perform and assume full responsibility for the financial statement audits of
     the FDIC. Every year since then the OIG auditors have been provided with a
     combination of on-the-job and formal classroom training in financial audit
     techniques and theory. The process of transferring full responsibility for the
     annual financial statement audit from GAO to the OIG continued during the
     reporting period as the audit team further built upon its collaborative efforts.
         While performing the audits of each fund’s financial statement, the FDIC’s
     internal control, and compliance with certain laws and regulations, the GAO/OIG
     audit team successfully implemented continuous auditing techniques that
     resulted in audit opinions that were completed 1 month ahead of last year and
     almost 2 months ahead of the statutory requirement of June 30. This
     accomplishment assists the Corporation in more timely preparation and
     issuance of its own required reports that discuss the FDIC’s financial results and
     the adequacy of the Corporation’s internal control. Also, because the team’s
     continuous audit testing occurs during regularly scheduled intervals, FDIC
     personnel are able to better plan their workload related to the financial audits
     and more efficiently coordinate information requests.
         In addition, throughout the course of the 2000 audits, the team was able to
     provide the Corporation with immediate feedback to which the Corporation
     could respond promptly. For instance, the team:
     • provided management with feedback regarding certain disbursement
       transactions with discrepancies, and management took corrective action
       before several other such transactions could occur and
     • presented improvements for implementing changes to the asset valuation
       process, which the FDIC adopted.
         Going forward, the GAO/OIG team plans to continue to maximize the benefits
     of its partnership and build upon previous achievements. Additionally, the team
     will continue to ensure that in addition to focusing on the fairness of the
     Corporation’s financial statements and reporting on internal controls, the team’s
     efforts will lead to specific internal control improvements and further promote
     public confidence in the Corporation.




26
     The Office of Investigations (OI) is
responsible for carrying out the                                                            Investigative Statistics
investigative mission of the OIG. Staffed
                                                                                   October 1, 2000 - March 31, 2001
with agents in Washington, D.C., Atlanta,
Dallas, Chicago, and San Francisco, OI         Judicial Actions:
conducts investigations of alleged                 Indictments/Informations ............................................................................................11
criminal or otherwise prohibited                   Convictions ................................................................................................................14
activities impacting the FDIC and its
programs. As is the case with most OIG         OIG Investigations Resulted in:
offices, OI agents exercise full law
                                                   Fines of ......................................................................................................$    12,000
enforcement powers as special deputy
marshals under a blanket deputation                Restitution of................................................................................................42,477,113
agreement with the Department of                   Monetary Recoveries of ................................................................................22,796,489
Justice. OI’s main focus is investigating          Forfeitures based on Asset Seizures ................................................................1,754,000
criminal activity that may harm or                 Total..........................................................................................................$67,039,602
threaten to harm the operations or the
integrity of the FDIC and its programs. In
pursuing these cases, our goal, in part, is    Cases Referred to the Department of Justice (U.S. Attorney) ........................................26
to bring a halt to the fraudulent conduct
under investigation, protect the FDIC and      Referrals to:
other victims from further harm, and               FDIC Management........................................................................................................4
assist the FDIC in recovery of its losses.
Another consideration in dedicating
                                                 OIG Cases Conducted Jointly with Other Agencies ......................................................59
resources to these cases is the need to
pursue appropriate criminal penalties not
only to punish the offender but to deter
others from participating in similar
crimes.                                       District of Maryland, District of Montana,
                                              Middle District of North Carolina, Eastern                             Results
                                              District of Oklahoma, Western District of                                   Over the last 6 months, OI opened
Joint Efforts                                 Oklahoma, Eastern District of Tennessee,                               16 new cases and closed 42 cases, leaving
     The OIG works closely with U.S.          Northern District of Texas, Southern                                   123 cases underway at the end of the
Attorneys’ Offices throughout the             District of Texas, Western District of                                 period. Our work during the period led to
country in attempting to bring to justice     Texas, Eastern District of Virginia, and                               indictments or criminal charges against
individuals who have defrauded the            the Southern District of West Virginia.                                11 individuals. Fourteen defendants were
FDIC. The prosecutive skills and                  Support and cooperation among                                      convicted during the period. Criminal
outstanding direction provided by             other law enforcement agencies is also a                               charges remained pending against 8
Assistant U.S. Attorneys with whom we         key ingredient for success in the                                      individuals as of the end of the reporting
work are critical to our success. The         investigative community. We frequently                                 period. Fines, restitution, and recoveries
results we are reporting for the last 6       “partner” with the Federal Bureau of                                   stemming from our cases totaled over
months reflect the efforts of U.S.            Investigation (FBI), the Internal Revenue                              $67 million. The following are highlights
Attorneys’ Offices in the Middle District     Service (IRS), Secret Service, and other                               of some of the results from our
of Florida, Southern District of Illinois,    law enforcement agencies in conducting                                 investigative activity over the last 6
                                              investigations of joint interest.                                      months.



                                                                                                                                                                                    27
     Fraud Arising at or Impacting                    out to herself, to an automobile              Two Former Executives of Famed Kentucky
                                                      dealership, and to buy McConnell’s            Horse Farm Are Sentenced to Prison and
     Financial Institutions
                                                      condominiums in Pittsburgh and Florida.       Ordered to Pay $41 Million in Restitution After
     Two Former Officers of the First National Bank   The indictment calls for the property and     Being Found Guilty of Offering $1.1 Million Bribe
     of Keystone Indicted on Charges of Bank          money the women received to be                to Bank Director
     Embezzlement, Conspiracy to Commit Bank          forfeited if they are convicted. That
     Embezzlement, and Mail Fraud                                                                        The former president and the former
                                                      property would include $4.28 million, a
                                                                                                    chief financial officer of Calumet Farm
          On March 22, 2001, two former               1956 Ford Thunderbird, and the two
                                                                                                    (Calumet), a famed Lexington, Kentucky,
     officers of the failed First National Bank       condominiums.
                                                                                                    thoroughbred horse farm, were sentenced
     of Keystone (Keystone), Keystone, West                As we previously reported, the           to prison for terms of 4 1/2 years and 21
     Virginia, one of which was the former            former senior executive vice president        months, respectively. Additionally, each
     bank chairperson and the other of which          and chief operating officer was convicted     defendant was ordered to pay restitution
     was the bank’s former senior executive           and sentenced last year on charges of         of $20.5 million. The sentencings
     vice president and chief operating officer,      obstructing an examination of the bank        culminated from a joint investigation by
     were indicted by a federal grand jury on         and is currently in prison serving a 57-      the OIG and the FBI into allegations that
     charges of bank embezzlement,                    month sentence. The examination, which        fraud on the part of First City officials
     conspiracy to commit bank                        was being conducted by the Office of the      and borrowers caused the bank to fail in
     embezzlement, and mail fraud. The                Comptroller of the Currency, uncovered        the early 1990s, shortly after Calumet,
     former bank chairperson, who is                  information that ultimately resulted in       one of its largest loan customers, went
     currently the Mayor of the town of               the closure of Keystone on September 1,       bankrupt. This case was prosecuted by
     Keystone, was also charged in the                1999. As the receiver of the bank’s assets,   the U.S. Attorney’s Office for the
     indictment with money laundering.                the FDIC has thus far reported losses to      Southern District of Texas.
           According to the indictment, the           the insurance fund attributable to
                                                                                                         As previously reported, in February
     purpose of the conspiracy, which began           Keystone that make it one of the ten
                                                                                                    2000, a federal jury found the former
     in October 1997, was “to loot the estate         most costly bank failures since 1933.
                                                                                                    executives guilty of four counts of false
     of J. Knox McConnell and to obtain                    The former executive vice president      statements, bribery, conspiracy, and
     monies and properties to which they              of Keystone Mortgage Corp., a subsidiary      bank fraud. The two defendants were
     were not entitled.” McConnell was the            of the bank, was also named as an             convicted of offering a $1.1 million bribe
     bank’s president from 1977 until his             unindicted co-conspirator in the most         to the vice chairman and a director of
     death on October 26, 1997. The former            recent indictment. He was convicted last      the bank to obtain $65 million in
     senior executive vice president and chief        year as well on charges of obstructing the    unsecured loans in the late 1980s and
     operating officer was executrix of               same bank examination and is currently        early 1990s for the financially troubled
     McConnell’s estate. As alleged in the            in jail serving a 51-month sentence.          farm. The vice chairman and a director
     indictment, after McConnell’s death, the         Following his conviction and sentencing       of the bank, who was alleged to have
     two former bank officers falsified bank          in the obstruction case, he pleaded guilty    used his position with the bank to
     books and computer records, signature            last November to charges of conspiracy,       facilitate the approval of disbursements
     cards, and savings passbooks for                 money laundering, and bank fraud. He          of loan proceeds and extensions of credit
     McConnell’s accounts to make it appear           was still awaiting sentencing on those        to Calumet and to frustrate and impede
     as if the former bank chairperson was a          charges at the end of this reporting          bank officers’ attempts to collect from
     joint owner of his funds. The two are            period.                                       the farm, continues to serve a total of 22
     charged with four counts of bank
                                                           The investigation and prosecutions       years’ imprisonment imposed after two
     embezzlement for transferring a total of
                                                      involving Keystone are being conducted        federal trials in 1994 and 1996. Also
     $4.28 million from McConnell’s accounts
                                                      by a multi-agency task force comprised of     prosecuted as a part of this case was a
     to accounts in the name of the former
                                                      Special Agents of the FDIC OIG, FBI, and      stable groom who worked for Calumet.
     bank chairperson for her personal use
                                                      IRS and prosecutors from the U.S.             The stable groom was convicted and
     and benefit.
                                                      Attorney’s Office for the Southern            sentenced to 5 months in prison for
          The former bank chairperson was             District of West Virginia and the U.S.        making false statements to a Houston
     also charged with 16 counts of money             Department of Justice. The FDIC               federal grand jury investigating whether
     laundering based on alleged transfers of         Division of Resolutions and Receiverships     the famous thoroughbred stallion Alydar
     money in and out of her bank accounts            has also provided critical support to the     was intentionally injured so the horse
     that she knew was “criminally derived.”          efforts of the task force.                    farm could collect over $36 million in
     She is alleged to have given the money to                                                      insurance proceeds.
     her relatives and made cashier’s checks

28
Prosecutions of Former Official                                                                               misapplied the embezzled
and Two Customers of Murphy-                                                                                  money into her personal
Wall State Bank Proceed                                                                                       bank account and bank
                                              President of Credit Card Servicing Company       accounts of members of her family. Her
     Updating the results of investigations
                                              Sentenced for Bank Fraud                         sentencing concludes this investigation
and prosecutions we have previously
                                                   An Illinois resident who operated a         which also resulted in the successful
reported involving Murphy-Wall State
                                              company that serviced credit cards for           prosecution of the former senior vice
Bank (MWSB), Pinckneyville, Illinois, the
                                              banks located in Illinois, Ohio, and New         president and director of Fort Gibson
former executive vice president of the
                                              York was sentenced on January 12, 2001           State Bank on a charge of misapplication
bank was sentenced in November 2000 to
                                              in the Southern District of Illinois to 24       of funds. The investigation was jointly
1-year’s probation and was fined $2,000.
                                              months’ incarceration followed by 5              conducted by the OIG and FBI and
On March 1, 2001, the owner of a
                                              years’ probation. He was further ordered         prosecuted by the U.S. Attorney’s Office
company that was a customer of MWSB
                                              to pay restitution totaling $957,475 to          for the Eastern District of Oklahoma.
entered a guilty plea in the U.S. District
Court for the Southern District of Illinois   eight victim banks or their related              Former Bank Official and Bank Customer of First
to a one-count information charging him       insurance companies.                             State Bank, Harrah, Oklahoma, Plead Guilty to
with bank fraud. As previously reported,           As reported previously, the president       Conspiracy to Commit Bank Fraud
the former executive vice president of        of the card servicing company pleaded                 On February 9, 2001, a former
the bank and the bank customer were           guilty in June 2000 to an indictment             executive vice president of First State
charged last year in connection with a        charging him with bank fraud relative to         Bank, Harrah, Oklahoma, and a cattle
loan fraud scheme. The former bank            his actions and his operation of his             broker who was a customer of the bank
official also signed a Stipulation and        company which contracted to provide              pleaded guilty to one count of conspiracy
Consent agreement with the FDIC               banks with the necessary services to             to commit bank fraud.
resulting in a corresponding order            administer and process MasterCard and                 As described in the Criminal
prohibiting him from participating in the     VISA credit cards. The indictment                Information filed against them, the two
operations or affairs of any federally        alleged that he made false represen-             men participated in a scheme to defraud
insured depository institution.               tations to these banks as to the amount          the bank by creating a series of 11
     On February 8, 2001, another             of money credited to and debited from            fraudulent nominee loans. From August
customer of MWSB pleaded guilty to an         their accounts and, from time to time,           through December 1998, they recruited
information charging him with one count       withdrew funds from the banks’ accounts          nominee borrowers and created fictitious
of bank fraud. As described in the plea       without authorization.                           nominee borrowers to obtain the loans.
agreement, that customer was the                   The FDIC is the primary regulator of        (A nominee borrower is a person or
president of an automobile dealership         three of the banks. This case was jointly        entity whose name is used for the
that had a floor plan agreement with          investigated by the OIG and FBI and was          purpose of obtaining a bank loan when
MWSB. The agreement stipulated that the       prosecuted by the U.S. Attorney’s Office         the proceeds are actually used for the
customer would remit proceeds from the        for the Southern District of Illinois.           benefit of another.) The former executive
sales of vehicles to MWSB within 1                                                             vice president used his position at First
                                              Former Internal Control Officer of Fort Gibson
business day of the date of sale. MWSB                                                         State Bank to prepare loan documents,
                                              State Bank Sentenced Following Plea of Guilty
made 14 loans and subsequent renewals                                                          secure loan approvals, and disburse the
                                              to Embezzlement Charge
to the dealership totaling $153,000 that                                                       loan proceeds to the cattle broker’s
were secured by 14 individually                    On January 4, 2001, the former              employer. The loan proceeds from this
identified vehicles that were purchased       internal control officer of Fort Gibson          scheme totaled $1,703,500.
by the dealership for resale. The             State Bank, an FDIC-insured bank in Fort
                                              Gibson, Oklahoma, was sentenced to 15                 This ongoing investigation is being
customer subsequently sold these 14
                                              months’ imprisonment followed by 36              conducted jointly by the FDIC OIG and
vehicles without obtaining the bank’s
                                              months’ probation. She was also ordered          the FBI, and the case is being prosecuted
approval and failed to remit the proceeds
                                              to pay $291,144 in restitution.                  by the U.S. Attorney’s Office, Oklahoma
from the sales as required.
                                                                                               City, Oklahoma.
     The investigations involving MWSB             As reported previously, the former
                                              internal control officer confessed last          Two Defendants Sentenced for Conspiracy to
are being conducted jointly by the OIG,
                                              year in her plea agreement that, during          Submit False Loan Applications to a Financial
the FBI, and the IRS, and the
                                              the period 1990 through 1998 while               Institution, a Third Sentenced for Making a False
prosecutions are being handled by the
                                              employed by the bank, she embezzled in           Entry in a Record of Comerica Bank
U.S. Attorney’s Office for the Southern
District of Illinois.                         excess of $250,000 of bank funds and                 On November 30, 2000, two Dallas,
                                                                                               Texas, residents were sentenced after
                                                                                                                                                   29
     pleading guilty to conspiracy to submit      Misrepresentations Regarding FDIC               Owner/Manager of Oklahoma City Insurance
     false loan applications to a financial                                                       Agency Sentenced on Securities Fraud Violation
                                                  Insurance
     institution, the FDIC-insured Comerica                                                            On January 24, 2001, the principal
     Bank. One defendant was sentenced to 8       Bank and Investment Brokerage Company Pay
                                                  Civil Settlements Totaling over $21.9 Million   owner/manager of an insurance agency
     months’ confinement, 4 months to be                                                          located in Oklahoma City, Oklahoma,
     served at a halfway house and 4 months            Based upon a request from the U.S.         was sentenced to 14 months’ imprison-
     in monitored home confinement. The           Attorney’s Office in Tampa, Florida, the        ment and 3 years’ probation. As
     other defendant was sentenced to 14          OIG investigated an allegation that             previously reported, the defendant was
     months in prison. The confinement of         registered representatives of a joint           indicted and pleaded guilty last year to
     each of the two men is to be followed by     venture formed by a major bank and              one count of securities fraud.
     3 years’ supervised release, and each        large investment brokerage company
     man was ordered to make restitution of       marketed some investment products to                 As charged in the indictment, the
     $84,193. On the same date, a former          customers of the bank by falsely                defendant became dissatisfied with the
     employee of Comerica Bank was                representing, among other things, that          profits being generated by his insurance
     sentenced after pleading guilty to making    the investments were FDIC-insured. The          agency and, aided and abetted by others,
     a false entry in a record of the bank. She   investigation disclosed a systemic pattern      began seeking high-risk investments that
     was sentenced to serve 15 months in          of false and fraudulent                         would yield significant returns. He
     prison to be followed by 5 years’            misrepresentations and material                 located such an investment opportunity
     supervised release and was ordered to        omissions during the sales presentations        through another company whose officials
     pay a fine of $10,000. This case was         to bank customers regarding two                 told him and his associates that an
     jointly investigated by the OIG and FBI      proprietary 10-year closed-end bond             investment of money through their
     and prosecuted by the U.S. Attorney’s        funds the company marketed. The                 company could earn returns of 6.5
     Office for the Northern District of Texas.   customers were mostly elderly and               percent or more monthly. In order to
                                                  extremely risk-averse but often                 obtain money to invest, he began
          As previously reported, during a                                                        advertising the sale of certificates of
     period from at least October 1997            unsophisticated with respect to
                                                  investment experience.                          deposit (CD) offering high rates of return.
     through January 1998, Comerica Bank                                                          He convinced mostly elderly individuals
     had a Community Reinvestment Act                  Using the information obtained             to purchase the CDs and wire-transfer
     Automobile Purchase Loan Program             during the investigation, the U.S.              funds to the Bank of America Dallas by
     instituted to help low- to moderate-         Attorney’s Office negotiated separate civil     representing to them that each CD was
     income individuals with little or no         settlements with the joint venture              issued by the Bank of America and FDIC-
     established credit history obtain            partners. The investment brokerage              insured up to $100,000 as well as
     financing for the purchase of automobiles    company contributed $3 million into a           privately insured. Further, he represented
     from dealerships. Persons applying for       victim reimbursement fund established           that the money for the CDs was being
     loans under the program were required        for the funds’ investors, paid the U.S.         invested in a Dallas bank. However, the
     to submit references attesting to their      Attorney’s expert witness costs, and paid       CDs were in fact issued by an entity
     stable financial history. The two            the FDIC OIG $508,469 for investigative         established by the defendant for the
     defendants were salesmen at an               costs. The bank contributed $11.5               purpose of collecting money from unwary
     automobile dealership who devised a          million to the victim reimbursement fund        investors and funneling it into his
     scheme to take advantage of the program      and paid a civil monetary penalty of            planned investment with the third
     by persuading Comerica to approve loans      $6.75 million to the United States.             company. Additionally, none of the CDs
     for applicants with bad credit to purchase   Additionally, the bank paid U.S.                was separately insured by the FDIC or
     cars. They carried out this scheme by        Attorney’s Office costs and the remaining       privately insured. Rather, more than $1.3
     creating for such applicants fictitious      portion of the FDIC OIG’s investigative         million of the proceeds from the sales of
     credit references that were submitted        costs. Both the bank and the investment         CDs were commingled in a single bank
     with loan applications to the bank           brokerage company also paid an                  account in Dallas, resulting in FDIC
     through the third defendant, who was         additional $25,000 each to the FDIC OIG         insurance of only $100,000 of the total
     employed during this period at the bank’s    for anticipated expenses in monitoring          amount. Moreover, the indictment alleged
     Wynnwood Center branch in Dallas.            the victim reimbursement process.               that it was the plan and intent of the
                                                                                                  defendant and his associates to remove
                                                                                                  the money from the account and make
                                                                                                  the high-risk investments that were not
                                                                                                  FDIC-insured.


30
    Simultaneous with the indictment,           prosecuted by the U.S. Attorney’s Office     through an FDIC-insured bank while
over $1.3 million was seized that was           for the Western District of Texas. The       knowingly omitting the material fact that
subsequently redistributed back to the          case against the investment broker was       any purported FDIC insurance would not
investors to minimize their losses.             investigated by the OIG, the FBI, and the    protect investors from losses of their
                                                Texas State Securities Board and is being    investment funds due to the defendant’s
     This case was jointly investigated by
                                                prosecuted by the Bexar County District      default on his loans.
the OIG, U.S. Secret Service, and FBI.
The case was prosecuted by the U.S.             Attorney’s Office, San Antonio, Texas.            During the investigation, CDs in
Attorney’s Office for the Northern              Investment Firm Owner Pleads No Contest to   excess of $9 million, which were still
District of Texas.                              Misapplication of Fiduciary Property and a   being held at six San Antonio area banks,
                                                Securities Registration Violation            were seized by investigators pursuant to
San Antonio Investment Broker and Former
                                                                                             seizure warrants obtained by the Bexar
Financial Relationship Manager for Bank of           On February 12, 2001, the president
                                                                                             County District Attorney’s Office. To
America Texas Plead Guilty in Connection with   and owner of an investment firm entered
                                                                                             date, agreements have been reached with
Investor Fraud Scheme                           a plea of nolo contendere in Bexar
                                                                                             several of those institutions to return the
     On January 9, 2001, the owner of an        County District Court, San Antonio,
                                                                                             seized funds to the defendant’s victims.
investment company entered into an              Texas, to selling unregistered securities
                                                                                             In December 2000, an agreement was
agreement with the Bexar County                 and misapplication of fiduciary property.
                                                                                             reached with one of those institutions,
District Attorney’s Office to plead guilty      In exchange for his plea, the District
                                                                                             resulting in the distribution to investors
to one count of 2nd degree theft and one        Attorney for Bexar County agreed to
                                                                                             of approximately $1,754,000.
count of 1st degree securities fraud under      dismiss the remaining four counts of a
                                                                                             Negotiations with at least two other
the Texas Penal Code. In a related action,      six-count indictment returned against
                                                                                             institutions are continuing.
on January 18, 2001, the former financial       him in June 2000 as well as nine other
                                                fraud-related indictments still                   During this investigation, CDs that
relationship manager for the Bank of
                                                outstanding against him. Scheduling of       were still being held at several San
America Texas, N.A. (BOA), in San
                                                his sentencing was postponed pending         Antonio area banks were seized and the
Antonio, Texas, was sentenced in U.S.
                                                his cooperation with investigators. This     proceeds were used to repay the
District Court for the Western District of
                                                case was investigated by the OIG and the     investors. However, the banks protested
Texas to 15 months’ imprisonment and 3
                                                Texas State Securities Board and is being    the move, saying that the investment
years’ probation. The sentencing followed
                                                prosecuted by the Bexar County District      firm owner, not they, should be held
his prior guilty pleas in November 2000
                                                Attorney’s Office, San Antonio, Texas.       responsible. Texas Banking
to two counts of making, uttering, and
                                                                                             Commissioner Randall James protested
possessing a forged security of an                   As essentially alleged in the
                                                                                             the seizures in a letter to the Bexar
organization with the intent to deceive         indictments, the defendant advertised
                                                                                             County District Attorney. Recently, a bill
another individual. An order of                 and sold CDs paying relatively high rates
                                                                                             has been filed in the Texas Senate to
restitution against this defendant is being     of return through his investment
                                                                                             protect banks from such fund seizures in
held in abeyance pending the sentencing         company. In total, approximately $9.1
                                                                                             the future. The bill, which has passed a
of the San Antonio investment broker.           million’s worth of CDs were sold to about
                                                                                             Texas Senate committee, would let a
    As previously reported, the two men         90 mostly elderly investors. When
                                                                                             financial institution keep funds derived
were indicted separately in connection          investors bought the CDs, however, their
                                                                                             from criminal activities if it could prove
with a scheme whereby they told                 contracts included a document giving
                                                                                             that it had no knowledge of the crime
prospective investors that they had a           control of the CD to the defendant. With
                                                                                             and did not ignore obvious improprieties.
special arrangement (which they did not         control of the CDs, he took the CDs to
                                                                                             The bill would also let a bank hold funds
have) with BOA. They told investors that        Texas banks and used the CDs as
                                                                                             in a separate account until a court
because of their special relationship with      collateral for personal loans. He was
                                                                                             decides whether it had knowledge of any
BOA, the investors would receive a              alleged in the indictments filed against
                                                                                             criminal activity. The chief of the Bexar
higher-than-usual rate of interest if they      him to have engaged in fraud by
                                                                                             County District Attorney’s White-Collar
purchased BOA CDs through them. The             intentionally failing to disclose that he
                                                                                             Crime Division in San Antonio has
co-conspirators then pledged the CDs as         transferred such proceeds to bank and
                                                                                             agreed that the law should be changed to
security for loans made to themselves.          brokerage accounts of businesses he
                                                                                             let institutions hold the money until a
                                                controlled and then using the proceeds
     The case against the former BOA                                                         forfeiture hearing. However, he has also
                                                for personal expenses and the purchase
financial relationship manager was                                                           pointed out that, in this case, the
                                                of a personal residence. Additionally, he
investigated by the OIG and is being                                                         investigation of whether bank officials
                                                was charged with misrepresenting that he
                                                                                             improperly accepted the CDs is
                                                was offering CDs that would be issued
                                                                                             continuing.

                                                                                                                                           31
     Restitution and Other Debt Owed                 million. The developers subsequently          in 1998 during an OIG audit of Shelter
                                                     sold the apartment complexes at a profit      Cove management contracts, he did not
     the FDIC
                                                     of $8 million and failed to report the gain   disclose his affiliation with the
     Strawbuyer in Loan Fraud Scheme Pleads Guilty   to the IRS.                                   partnership to the auditors. Further, in
     to Income Tax Evasion and Pays the FDIC                                                       1999 during the OIG investigation of the
     $250,000                                             The investigation revealed the
                                                     developers submitted false financial          contractor, he allegedly instructed the
          In February 2001, a strawbuyer who         statements to the RTC, which the RTC          subcontractor to conceal any checks
     was involved in a scheme with three             contractor relied on as a basis for its       written on the partnership account that
     developers to repurchase defaulted loans        decision not to pursue the developers’        were made payable to the contractor.
     at a discount pleaded guilty in U.S.            guaranty. The financial statements            Maryland Man Pleads Guilty to Conspiracy and
     District Court, Phoenix, Arizona, to tax        represented that the developers’ net          Second Defendant Charged in Connection with
     evasion. As a part of his plea agreement,       worth was insufficient to recover on the      Thefts of FDIC Laptop Computers
     he also paid the FDIC $250,000 to settle        guaranties.
     all claims against him in connection with                                                          On February 20, 2001, a Maryland
     his involvement in the scheme.                                                                resident entered a guilty plea in U.S.
                                                     Contractor Activities                         District Court, Eastern District of
          As previously reported, the three                                                        Virginia, to a charge of conspiracy in
                                                     Former FDIC Contractor Pleads Guilty to
     developers involved in the scheme were                                                        connection with his participation in the
                                                     Conspiracy and Obstruction of an OIG Audit
     sentenced to pay fines totaling $212,820                                                      theft and resale of laptop computers
     and restitution totaling $7,243,220.                 On February 27, 2001, a former
                                                                                                   belonging to the FDIC. In a related
     Payment of the restitution was split with       FDIC contractor appeared in Federal
                                                                                                   action, on February 22, 2001, a criminal
     $1.5 million going to the FDIC and the          District Court, Orlando, Florida, and
                                                                                                   complaint was filed charging a former
     remaining $5.7 million going to the IRS         pleaded guilty to conspiracy and
                                                                                                   employee of an FDIC contractor with
     to resolve tax problems. Additionally,          impeding the functions of the FDIC by
                                                                                                   conspiracy in connection with the same
     each of the three was sentenced to 24           obstructing an OIG audit. The former
                                                                                                   theft scheme.
     months’ probation and ordered to                FDIC contractor had been retained to
     perform 400 hours of community service.         manage the Shelter Cove R.V. Resort, an            The investigation of the laptop thefts
                                                     FDIC-owned property in St. Cloud,             was initiated by the OIG based on a
          The prosecutions in this case were                                                       referral from the Division of Information
                                                     Florida. He was still awaiting sentencing
     the result of a joint FDIC and IRS                                                            Resources Management (DIRM) stating
                                                     on those charges at the end of this
     investigation into allegations that the                                                       that a laptop computer was missing and
                                                     reporting period.
     developers committed tax fraud and                                                            possibly stolen. The computer in
     provided false financial statements to the           As previously reported, the former
                                                                                                   question was part of the FDIC computer
     former Resolution Trust Corporation             FDIC contractor was indicted in
                                                                                                   equipment inventory under the control of
     (RTC) and an RTC contractor in                  September 2000 on 38 counts of various
                                                                                                   an FDIC contractor responsible for
     connection with two nonperforming loans         types of criminal activities including
                                                                                                   inventory management. As described in
     the three had with a failed thrift. Our         submission of false invoices, false
                                                                                                   the plea agreement and related filings,
     investigation found that the developers         statements and representations, bid-
                                                                                                   the former employee of the FDIC
     were guarantors on two loans totaling           rigging, and the obstruction of an OIG
                                                                                                   contractor allegedly used his position to
     $15.9 million from Empire of America            audit and a subsequent OIG
                                                                                                   steal computers belonging to the FDIC.
     Realty Funding Corporation, a subsidiary        investigation. According to the
                                                                                                   The Maryland resident, who was a friend
     of Empire of America Federal Savings            indictment, he formed a partnership with
                                                                                                   of the contractor employee, assisted in
     Bank, Buffalo, New York. The loans              a subcontractor he had hired to perform
                                                                                                   selling the stolen computers to
     originated in 1988 and 1989 and were to         repairs to Shelter Cove. The contractor
                                                                                                   unsuspecting third parties for
     be utilized for the construction of two         and subcontractor then shared the
                                                                                                   approximately $600 to $1,200 each.
     apartment complexes.                            proceeds of funds received from the FDIC
                                                                                                   According to the complaint filed against
                                                     for the payment of repair expenses. The
          In 1990, the RTC was appointed                                                           the contractor employee, between
                                                     contractor purportedly also submitted
     conservator of Empire and acquired the                                                        approximately October 1998 and
                                                     false and forged bids to ensure the
     two delinquent loans. In early 1991, the                                                      December 1999, he allegedly stole at
                                                     subcontractor’s bid would be lowest. In
     developers requested loan modifications                                                       least 50 FDIC computers. As of March 31,
                                                     1996, when he filled out and signed an
     which the RTC denied. In late 1991, the                                                       2000, FDIC OIG Special Agents had
                                                     FDIC Representations and Certifications
     developers repurchased their loans for $9                                                     recovered 33 of the stolen computers.
                                                     statement, the contractor did not reveal
     million from the RTC using a strawbuyer.
                                                     the conflict of interest based on his
     The sale resulted in a loss of over $6
                                                     involvement in the partnership. Likewise,

32
Employee Activities                                Purchases included gift certificates,                   Four of the other five defendants in
                                                   jewelry, and electronic equipment. In             the case have pleaded guilty to Access
Former Deputy Director of DIRM Sentenced to
                                                   furtherance of the conspiracy, the FDIC           Device Fraud and the fifth is awaiting
30 Days in Jail, 3 Years’ Probation, and Ordered
                                                   employee checked the victims’ credit              trial. This case was investigated by the
to Pay Restitution to the FDIC
                                                   status by applying for credit accounts            Inspectors General of the FDIC and the
    On February 9, 2001, a former                  using the victims’ names, Social Security         HHS and is being prosecuted by the U.S.
Deputy Director, DIRM, was sentenced to            numbers, and other identifying                    Attorney’s Office for the District of
30 days in jail, 3 years of supervised             information.                                      Maryland.
probation, and ordered to pay the FDIC
$2,095 in restitution. He was also
ordered to undergo mandatory financial
counseling.
     The sentencing of the former FDIC
official was based on a plea agreement
entered in Federal Court in the Eastern                                 OIG Coordination with DRR Results in Joint
District of Virginia in December 2000,                                            Investigative Cases
wherein he pleaded guilty to a criminal                                  That May Recover Millions of Dollars
information charging him with one count                           The OIG continued to coordinate with the Division of Resolutions
of making and presenting a false claim to                     and Receiverships (DRR) both at headquarters and in field offices on
the FDIC in connection with a fictitious                      investigations of suspected criminal activity involving court-ordered
business-related trip. As described in the                    restitution and other debts that are owed to the FDIC as a result of
Statement of Facts accompanying the                           takeovers of failed banks and thrifts. As noted in previous semiannual
plea agreement, he admitted submitting                        reports, court-ordered restitution is the result of criminal convictions
two false travel vouchers to the FDIC. In                     stemming from schemes to defraud federally insured institutions that
addition to the $2,095 restitution ordered                    have resulted in losses to the FDIC. As of March 31, 2001, a total of
at sentencing, he had previously paid                         nearly $952 million is due as a result of outstanding criminal
$4,189 in restitution to the FDIC as a                        restitution orders.
result of the investigation. The Deputy
Director also resigned from his position                          Additionally, the FDIC is continuing to collect debts it is owed as a
with the FDIC while under investigation.                      result of loans originated by financial institutions prior to their failure.
                                                              The OIG’s investigative work in these cases is based on indications
Former FDIC Employee Pleads Guilty to Identity                that the debtors may have made false statements concerning their
Theft Fraud Scheme                                            assets or their ability to pay. Some of these cases involve elaborate
    A former employee in the FDIC                             schemes to conceal assets, including illegal transfers to others. They
Division of Finance pleaded guilty to                         also involve, in some instances, the filing of fraudulent bankruptcies to
conspiracy in connection with an                              avoid payment. The OIG’s participation in pursuing these matters
identity theft fraud scheme. The                              offers investigative techniques not otherwise available to DRR, such as
scheme’s victims included employees of                        serving subpoenas, conducting surveillance, executing search
the FDIC and the Department of Health                         warrants, and interviewing various subjects.
and Human Services (HHS).                                         As of March 31, 2001, the OIG is conducting 45 investigations that
     According to the Statement of Facts                      are being coordinated with DRR and involve over $288 million in
filed as part of the guilty plea, from                        outstanding restitution orders and other types of debt.
August 1999 through June 2000, the
FDIC employee conspired with five
others to obtain goods and services on
credit by using the names and personal
information of unwitting victims. The
employee admitted that the conspirators
obtained fraudulent identification cards
in the victims’ names and used those
names to open credit accounts, obtain
goods and services in retail stores, and
order merchandise over the Internet.

                                                                                                                                                  33
          Over the past few years, the OIG has     Capital as the primary theme. We also           programs. Staff are also learning and
     worked hard to create an organization         initiated development of the OIG’s              developing through: attendance and
     that is committed to high performance.        Human Capital Strategic Plan, which is          participation at professional conferences,
     Such a commitment requires dedication         a multiyear plan that focuses on bringing       our rotation policy which allows audit
     to improving our work and adapting to         the OIG’s human resource goals and              and evaluation staff to move among
     the rapidly changing workplace through        activities in line with the OIG mission.        various work units to broaden their
     continuous cycles of self-evaluation,         The plan will be                                     expertise, and attendance at FDIC
     learning, and change. It also requires        introduced at the                                    training in areas beyond their
     investment in our most important asset –      upcoming office-                                     normal job functions. These
     our people. To ensure the relevance and       wide conference.           Several of the            opportunities facilitate a greater
     value of our work, we have continued to            The OIG                                         awareness of the challenges that
     seek and respond to opportunities to add      continues to be
                                                                                OIG staff who
     value to the Corporation and help it to       committed to
     achieve its goals. In doing so, we have       improving the
                                                                            have participated
     been able to learn more about how we          quality of our
     can best assist in meeting emerging           work by investing
                                                                                in leadership
     challenges in such areas as containing        in the growth and
     costs, assessing the efficacy of business     development of
                                                                             training recently:
     processes, and managing information           all of its staff.
     technology. Working with the                  During this
     Corporation on joint initiatives is also      reporting period
     helping us to more fully develop our staff    several staff attended
     by providing challenging opportunities        leadership training
     for them to learn and grow. Becoming          offered by the John F.
     more involved with corporate initiatives      Kennedy School of
     is also enabling us to better plan for work   Government, the                                              Dorn Wheatley Walker (center)
     that will add the most value to the           Aspen Institute, and                                         with Allan Sherman, OIG, and
     Corporation; providing better insight on      the Aspiring Leader                                          Kay Zielinski, DOA
     where to deploy our resources; and            and Executive
     identifying additional skills and             Potential Programs
     knowledge that staff need to maximize         sponsored by the
     the OIG’s effectiveness.                      USDA Graduate
                                                   School. Other staff are
     Investing in Our Human Capital                adding to their            Janice Baltimore
                                                   technical expertise
          During this reporting period we have
                                                   through various initiatives. The OIG
     furthered our efforts to value our people
                                                   offered classes to upgrade our auditors’
     and improve our processes and working
                                                   skills in systems controls and
     relationships. We have moved forward to
                                                   information systems auditing concepts.
     establish human capital as a top priority
                                                   Our investigations staff held a training
     and recognize that employees are assets
                                                   conference to provide hands-on training
     whose value can be enhanced through
                                                   in defensive tactics and firearms and to
     investments. Our planning for a 2001
                                                   address emerging regulatory and
     office-wide conference includes Human
                                                   legislative issues affecting Investigation  John Colantoni



34
different FDIC divisions and offices face         As illustrated in
as they carry out their responsibilities.    our 2001 Audit and
The rotation policy, previously a pilot      Evaluation Plan, we
program, was recently opened to all staff    have structured our
within the OIG.                              audits and
     The OIG has continued to support        evaluations to be
staff participation in a wide variety of     more aligned with the
diversity activities that have helped to     Corporation’s major
foster awareness within the office. The      program areas –
OIG has also conducted several action        insurance,
planning sessions to address issues          supervision,
raised by the results of the FDIC’s          receivership
Organizational Assessment survey taken       management, and
last year. Staff have also participated in   other corporate
the Corporation’s Diversity Dialogue         support activities.
pilot program, which is intended to          During this reporting
enhance individual awareness and             period we joined with
understanding of workforce diversity and     the Corporation to
promote individual learning and change.      examine several
Other staff participated in planning the     major processes
Corporation’s first Jewish Heritage          within the FDIC. As
celebration. The OIG has also supported      discussed earlier, at
staff members’ attendance at training        the Corporation’s
and other educational sessions to            request and in an
enhance their professional background        effort to increase
while promoting diversity. Several OIG       operating efficiencies,
offices have continued to initiate varied    the OIG, along with
activities to increase diversity             the Office of Internal
awareness. The recently created              Control Management,
Employee Advisory Group has been             completed a study of
involved in dialogue between the staff       the Corporation’s
and the Inspector General on many            administrative
issues including rotational opportunities,   services. Further, a number of OIG staff      agreement provides for communication
promotions, performance evaluations,         are participating in a significant Division   between OI, DRR, and the Financial
and telecommuting. It has created a link     of Supervision (DOS) Process Redesign         Crimes Unit regarding OI’s work in these
to the OIGNet Web site and an e-mail         initiative, which DOS established to          areas; notification of actions by the
address to provide a central point of        improve operating efficiency and prepare      Department of Justice; coordination on
communication for OIG staff.                 for the challenges of a different working     proposed settlements requiring agency
                                             environment. In addition, as part of the      approval; and cases resulting in
                                             Division of Finance’s speaker series, we      restitution orders so that DRR can track
Building Relationships                       joined other corporate officials to discuss   and collect the restitution payments.
     In an effort to continuously improve    FDIC security issues such as Internet              We also participated in the
and add impact to our work, we have          and Web security, computer security,          Corporation’s Contractor Summit
sought opportunities to strengthen our       and physical security matters. The Office     Meeting and agreed to participate on
relationships both internally within the     of Investigations (OI), the Division of       teams with other divisions and offices to
Corporation and externally with other        Resolutions and Receiverships (DRR),          design solutions to oversight problems
audit and regulatory groups. Through         and the Financial Crimes Unit finalized       and to evaluate and expand the contract
joint efforts, conferences, and meetings,    an agreement governing coordination           manager courses that could be included
we have continued to coordinate our          among them regarding OIG                      in the Contractor Oversight Program.
work with the FDIC and shared best           investigations involving failed
practices with other groups within the       institutions, FDIC debtors, and/or the
audit community.                             disposition of FDIC assets. The



                                                                                                                                       35
     Coordination with and Assistance to FDIC Management
     • Participated in the Division of              explained the OIG’s role and
     Supervision (DOS) Process Redesign             communicated to DCA staff how the OIG
     initiative, which DOS established to           could work in partnership with them to
     improve operating efficiency and prepare       achieve their strategic goals.
     for the challenges of a different working
     environment.                                   • OIG staff briefed the Division of
                                                    Information Resources Management’s
     • OIG’s Office of Investigations (OI) has      Career Opportunity Program participants
     continued to provide training during           on the OIG and its mission.
     Commissioned Examiner Seminars based
     on OIG experience in investigating fraud       • Initiated annual review of the
     and obstruction of bank examinations at        Corporation’s Internal Control and Risk
     the failed First National Bank of              Management Program, which will address
     Keystone.                                      whether the evaluation and reporting
                                                    process supporting the 2000 FDIC
     • OI has coordinated closely with DOS          Statement on Internal Accounting and
     and the Legal Division regarding fraud         Administrative Controls is consistent
     investigations at both open and failed         with the requirements of the Federal
     institutions to facilitate implementation      Managers’ Financial Integrity Act.
     of 8E orders to bar those convicted from
     employment in the banking industry.            • Participated in a Contractor Summit
                                                    Meeting regarding Contract Oversight
     • OI, the Division of Resolutions and          Best Practices sponsored by OICM.
     Receiverships, and the Financial Crimes
     Unit finalized an agreement governing          • Participated in an OICM-sponsored
     coordination among them regarding OIG          initiative to evaluate project manager
     investigations involving failed                courses that could be included in the
     institutions, FDIC debtors, and/or the         Contractor Oversight Program.
     disposition of FDIC assets.
                                                    • As a result of an evaluation report
     • Conducted a study of administrative          issued in September 1999, the Dallas
     services jointly with the Office of Internal   Regional Office’s new copier program will
     Control Management (OICM) at the               save the FDIC an estimated $400,000
     FDIC’s request.                                annually.

     • As part of the Division of Finance           • Along with GAO, provided DIRM with
     speaker series, OIG staff contributed to       comments on a new draft Public Key
     panel discussions with other corporate         Infrastructure certificate policy.
     officials regarding FDIC security issues,
     with specific focus on Internet and Web        • Made a presentation to DOF
     security, computer security, and physical      accounting staff regarding workpaper
     security matters. We also shared the           preparation, including the benefits of
     results of our review of FDIC Employee         automated workpapers.
     Internet Use and discussed uses and
     benefits of the Internet at the FDIC as        • At DIRM’s request, the OIG performed
     well as the associated risks.                  an independent security review of the
                                                    FDIC’s mainframe in time for DIRM to
     • Participated in a Division of                meet federally imposed deadlines.
     Compliance and Consumer Affairs (DCA)
     conference. The Inspector General




36
OIG Internal Activities
• Completed the third external customer    • Briefed new Board Director and
survey regarding satisfaction with OIG     Chairman of the Audit Committee, John
operations and processes.                  M. Reich, on the FDIC OIG’s role and
                                           mission.
• Completed an external peer review of
the Department of Justice OIG’s Office     • Continued participation in interagency
of Audits.                                 Government Performance and Results
                                           Act Interest Groups sponsored by the
• Completed a quality assurance review     President’s Council on Integrity and
of the OIG’s Office of Management and      Efficiency and the U.S. Office of
Policy.                                    Personnel Management to share ideas
                                           and best practices on Results Act
• Initiated quality assurance reviews of   implementation.
the Office of Audits and Office of
Congressional Relations and Evaluations.   • Participated in the Automated Working
                                           Paper Initiative Task Force. This task
• Issued the 2001 Audit and Evaluation     force has researched different OIGs’
Plan, which aligns our planned review      approaches to automating the working
efforts to the Corporation’s strategic     paper process in an effort to improve
areas: Insurance, Supervision,             efficiency.
Receivership Management, and
Corporate Support. To better assist the    • Submitted FY 2002 Budget to House
Corporation in achieving its mission, we   and Senate Appropriations Committees.
met with corporate management for
input and suggestions for the plan.        • Participated in an annual conference of
                                           the Association of Directors of
• The Inspector General participated as    Investigation regarding Addressing the
a panelist at the Annual Internal          Challenges of the 21st Century.
Auditing in Government Conference
sponsored by the Institute of Internal     • Further developed a plan for
Auditors regarding Maximizing the          automating our working papers process
Power of Information Technology and        flow in Office of Audits. Software selected
Human Capital.                             will help the OIG conform to the
                                           Government Paperwork Elimination Act
• The Inspector General spoke on           of 1998.
Leadership in Transition at the annual
Federal Leadership conference              • OIG Counsel’s office litigated 11
sponsored by the Association of            matters. Such matters involved the
Government Accountants.                    Equal Employment Opportunity statute,
                                           the Right to Financial Privacy Act, the
• Revised management control plans for     qui tam provisions of the False Claims
the OIG’s accountability units under the   Act, and civil and criminal cases in
Corporation’s Internal Control and Risk    which OIG documents were sought in
Management Program.                        discovery.

• Provided an action plan summary to       • OIG Counsel’s office provided advice
the Chairman based on OIG staff’s input    and counsel, including written opinions,
through the FDIC’s Organizational          on a number of issues such as electronic
Assessment survey.                         signatures, computer security and
                                           intrusions into government computer
• Issued the OIG’s 2000 Performance        systems, payroll and overtime matters,
Report.                                    the Bank Secrecy Act, contracting issues,
                                           and ethics-related matters.




                                                                                         37
     Table 1: Significant OIG Achievements
     October 1, 2000 - March 31, 2001
     Audit Reports Issued                                                       21
     Audit-Related Memorandums Issued *                                         16
     Evaluation Reports Issued                                                      3
     Evaluation-Related Correspondence Issued *                                     5
     Questioned Costs and Funds Put to Better Use
     from Audit and Evaluation Reports                                   $8 million
     Investigations Opened                                                      16
     Investigations Closed                                                      42
     OIG Subpoenas Issued                                                       24
     Convictions                                                                14
     Fines, Restitution, and Monetary Recoveries                        $67 million
     Hotline Allegations Referred                                               11
     Allegations Substantiated                                                  22
     Allegations Closed                                                             6
     Proposed or Existing Regulations and Legislation Reviewed                      5
     Proposed FDIC Policies Reviewed                                            30
     Responses to Requests and Appeals Under the
     Freedom of Information Act and Privacy Act                                 13



     * These memorandums and other correspondence relate to OIG work that did not
       result in formally issued audit or evaluation reports.




      Table 2: Nonmonetary Recommendations
      October 1998 - March 1999                                                133
      April 1999 - September 1999                                               66
      October 1999 - March 2000                                                 68
      April 2000 - September 2000                                               74
      October 2000 - March 2001                                                 90




38
           Table 3: OIG Review of Proposed or Existing Legislation and Regulations
                                      (October 1, 2000 - March 31, 2001)
OIG Counsel reviewed and commented upon the following legislation and regulations:
Legislation/Regulations
The Counsel’s office carried out its responsibilities under the Inspector General Act to review proposed or existing
legislation and regulations. Among the items we reviewed and provided comments on included draft Office of
Management and Budget Guidance on Implementing the Government Information Security Reform Act contained in
the 2001 Defense Authorization Act (Public Law 106-398). In the preceding reporting period we had provided
comments on what was then the proposed legislation.
During this reporting period, the FDIC issued final regulations implementing the Program Fraud Civil Remedies Act,
an administrative system for assessing monetary penalties for liability resulting from fraud and false statements
against the FDIC. We had worked closely with the Corporation’s Legal Division to develop these regulations, which
will now provide an additional tool for the Corporation to use in addressing issues of fraud.
We worked with other OIGs to coordinate comments on behalf of the Inspector General community and develop a
consensus position on the sensitive area of Inspector General access to confidential Alternative Dispute Resolution
(ADR) information. The government-wide ADR Council had issued a call for comments on its paper dealing with
confidentiality of ADR information. The comments we submitted from the President’s Council on Integrity and
Efficiency and the Executive Council on Integrity and Efficiency attempted to balance the need for preserving the
confidential nature of certain ADR materials against the Inspector Generals’ statutory right of access to agency
information necessary to perform the duties of the office. The ADR Council accepted some (although not all) of the
recommendations from the Inspectors General.
Counsel’s office reviewed various regulatory and other proposals, both internal to the FDIC and those with external
application, and commented upon 12 CFR Part 325 – Adjustments to the Risk-Based Capital Ratio Calculations
(Securities Borrowing Transactions).
Counsel’s office also reviewed and provided comments on the proposed model Memorandum of Understanding
between the FDIC and National Association of Insurance Commissioners, pursuant to the Gramm-Leach-Bliley Act.
This agreement will address the sharing of confidential information between and among financial institutions,
insurance commissioners, and financial regulators.




                                                                                                                       39
           Figure 1: Products Issued and Investigations Closed

     100
                                                                                      10/98 - 3/99
     90
                                                                                       4/99 - 9/99*
     80
                                                                                       10/99 - 3/00*
     70
                                                                                       4/00 - 9/00*
     60
                                                                                       10/00 - 3/01*
     50                                                                       * Includes products related
                                                                                to audit and evaluation
     40                                                                         work that did not result in
                                                                                formally issued reports.
     30
     20

     10
       0
                         Audits &                            Investigations
                        Evaluations




           Figure 2: Questioned Costs/Funds Put to Better Use (in millions)

     20                                                                               10/98 - 3/99
                                                                                      4/99 - 9/99
     15                                                                               10/99 - 3/00
                                                                                      4/00 - 9/00
     10                                                                               10/00 - 3/01


      5


      0
                                             Audits &
                                            Evaluations




40
     Figure 3: Fines, Restitution, and Monetary Recoveries Resulting from OIG
               Investigations (in millions)
                                                                                10/98 - 3/99
70
                                                                                4/99 - 9/99
60
                                                                                10/99 - 3/00
50
                                                                                4/00 - 9/00
40
                                                                                10/00 - 3/01
30

20

10
 0




                                                                                               41
42
OIG 2000 Performance Report


     INTRODUCTION ..............................................................................................44
     STATISTICAL SUMMARY OF PERFORMANCE AGAINST ANNUAL GOALS..........45
     INSPECTOR GENERAL’S OVERALL ASSESSMENT OF PERFORMANCE ............46
     PERFORMANCE BY STRATEGIC OBJECTIVE AREA ..........................................47
           Audits, Evaluations, and Investigations Add Value..................................47
                          Client Satisfaction
                          Relevance
                          Quality
                          Impact/Results
                          Productivity
                          Timeliness
           OIG Professional Advice Assists the Corporation....................................52
                          Emerging Issues and Task Forces
                          Advising on Vulnerabilities and Risks
           OIG Communicates Effectively with Clients............................................53
                          Ensuring Clients Are Informed of OIG Role, Mission, Issues
                          Responding to Inquiries and Requests
                          Working with PCIE and Other Government Agencies
     RESOURCE MANAGEMENT GOALS..................................................................56
     DETAIL LISTING OF ANNUAL PERFORMANCE GOAL ACCOMPLISHMENT ............57
     STATISTICAL SUMMARY OF PREVIOUS YEAR’S PERFORMANCE –
          1999 ANNUAL PERFORMANCE GOALS ..................................................60




                                                                                                                     43
     Introduction
     Nature and Purpose of Annual                          Relationship to the FDIC’s Annual                        Relationship to the OIG’s Semiannual
     Performance Report                                    Program Performance Report                               Report to the Congress
           The Office of Inspector General has developed         The FDIC plans to issue its 2000 Program                  Annual Performance Reports of OIGs prepared
     its own independent Strategic Plan and 2000           Performance Report to the Congress during the            under the Results Act differ from semiannual reports
     Annual Performance Plan. These plans were             second quarter of 2001, presenting its performance       of OIGs prepared under the Inspector General Act.
     designed to establish goals to measure performance    against 26 annual goals. The Corporation’s annual        The two reports differ with respect to the time
     consistent with the principles of the Government      goals addressed the Corporation’s mission to             periods covered and some of the specific reporting
     Performance and Results Act (Results Act). This       “Contribute to the stability and public confidence in    requirements. However, because both types of
     report presents our performance against our 2000      the nation’s financial system” in four strategic         reports present OIG accomplishments to the
     Annual Performance Plan focusing on the most          results areas: (1) Insured depositors are protected      Congress, we have included the Annual
     meaningful annual measures related to achieving       from loss without recourse to taxpayer funding; (2)      Performance Report for calendar year 2000 as a
     our strategic goals and objectives.                   Insured depository institutions are safe and sound;      separate but integral component of this Semiannual
                                                           (3) Consumers’ rights are protected and FDIC-            Report to the Congress, which covers the period of
                                                           supervised institutions invest in their communities;     October 1, 2000 to March 31, 2001.
                                                           and (4) Recovery to creditors of receiverships is        Notwithstanding these reporting time period
                                                           achieved.                                                differences, we believe integrating the reports to the
                                                                                                                    Congress under these two statutes facilitates
                                                                 We believe that accomplishing the OIG’s
                                                                                                                    congressional consideration of the results of OIG
                                                           strategic and annual goals and objectives
                                                                                                                    activities.
                                                           contributes to the Corporation’s achievement of its
                                                           mission and goals and objectives.
                                                                 The requirement for an annual performance
                                                           report under the Results Act applies to the agency
                                                           as a whole rather than to the OIG as a separate
                                                           component. However, because of the unique mission
                                                           and independent nature of Inspectors General under
                                                           the Inspector General Act, we have prepared
                                                           separate strategic and annual plans and reports,
                                                           rather than integrating OIG goals and results into the
                                                           Corporation’s plans and reports. The FDIC’s 2000
                                                           Program Performance Report references our annual
                                                           report.




44
Statistical Summary of Performance Against Annual Goals
      The following table summarizes our collective
                                                                                                                        Annual Goal Accomplishment
performance against the annual performance goals
                                                              Strategic Goal                Strategic                       (Number of Goals)
for 2000. The table reflects whether the goals were
either Met, Substantially Met,1 or Not Met. (As a                  Areas                 Objectives Areas                   Substantially     Not
frame of reference, page 60 includes a similar table                                                                Met         Met1          Met               Total
showing our performance against 1999 goals.)                 Audits, Evaluations,        Client Satisfaction          1                                 3           4
                                                             and Investigations Add      Relevance                    2               1                             3
      A detail listing showing goal accomplishment
                                                             Value                       Quality                      2                                             2
for each of the annual performance goals for 2000
                                                                                         Impact/Results               3                                             3
is provided beginning on page 57. If the 2000 goal
                                                                                         Productivity                 3               1                             4
had a similar or “like” goal in 1999, the listing also
                                                                                         Timeliness                   1               2                 2           5
shows goal accomplishment for 1999.
                                                             Professional Advice         Advise on Emerging
                                                             Assists the Corporation     Issues & Vulnerabilities     4                                             4
                                                             OIG Communicates            Inspector General
                                                             Effectively with Clients/   Role/Activities;
                                                             Stakeholders                Inquiry Response;
                                                                                         Interagency Issues           8               2                 1          11
                                                             Total                                                   24               6                 6          36
                                                             Percentage                                              66%            17%               17%         100%


                                                               The table above indicates that we met or substantially met 83 percent of our goals. (This compares to a
                                                         79 percent level of achievement or substantial achievement for 1999.) We recognize the considerable
                                                         shortcomings of attempting to evaluate performance based solely on a statistical summary of measures – given
                                                         that all measures are not equal in weight and the quality of measures is still evolving. Nevertheless, the
                                                         numbers provide a rough overall indicator of performance. Considering these overall indicators, along with other
                                                         factors, the next section of the report presents our overall assessment of our progress in achieving our
                                                         strategic goals and objectives.




                                                         1
                                                             A quantitative goal was considered “substantially met” if actual performance came within 10 percent of the
                                                             target level of performance.

                                                                                                                                                                            45
     Inspector General’s Overall Assessment of Performance
           Progress Against 1999 Assessment: The                1999 Report: The 1999 report also noted the               2000 New Areas of Concern: After receiving
     OIG 1999 Performance Report included an overall       need to substantially improve                           a positive upward trend in client satisfaction ratings
     assessment of OIG performance which factored in            • our productivity and                             for 1999 (as reflected in last year’s performance
     judgments of the relative quality and weight of the                                                           report), recently conducted surveys for 2000 show a
     performance measures to evaluate OIG performance           • the timeliness of work products.                 leveling off of overall communication ratings and
     and identify areas needing improvement. Progress in                                                           somewhat lower ratings for audit, evaluation, and
                                                                 2000 Progress: Productivity improved when
     2000 for areas needing improvement are shown                                                                  investigative work. Independent contractors
                                                           compared to 1999 results. All four productivity goals
     below:                                                                                                        conducting our surveys believe the lowered ratings
                                                           for 2000 were met or substantially met; this is an
                                                                                                                   are due in part to increased expectations of the OIG.
          1999 Report: The 1999 report noted the need      improvement when compared to two of four goals
                                                                                                                   Nevertheless, to address client communication
     to make more progress in our ability to better        that were not met in 1999.
                                                                                                                   concerns, it seems clear we need to focus on
     measure
                                                                  Timeliness statistics remained somewhat          increased direct personal contact of OIG executives
          • the relevance of work,                         constant from last year. Three of five timeliness       with the Corporation and better explain our unique
                                                           goals for 2000 were met or substantially met. This      reporting relationship and communication processes
          • the quality of work, and
                                                           is similar to reported results in our 1999              with the Congress. For our core products and
          • the impact of our work.                        Performance Report. An unmet goal for audit             services, we need to continue to address concerns
                                                           timeliness related only to older projects (those        over the value and cost-benefits of certain OIG work
           2000 Progress: OIG offices have developed                                                               and to provide the Corporation with better
                                                           initiated before January 1, 2000). An unmet
     2001 goals, which are reflected in the OIG’s 2001                                                             information on the cost-benefits of our work. We
                                                           investigative goal was affected by the increased
     Performance Plan that was issued in September                                                                 have initiated action to address these areas of
                                                           complexity of certain types of cases involving bank
     2000. This process resulted in new and revised                                                                concern.
                                                           fraud.
     goals that we believe achieve some level of
     improvement. More extensive review of these and
     other measures will occur in 2001 when we update
     the OIG’s Strategic Plan.




46
Performance By Strategic Objective Area
STRATEGIC GOALS: Audits, Evaluations,                                                                                                                                          1998
and Investigations Add Value                                Client Satisfaction Rating                                                                                         1999
     Client Satisfaction - Meeting Clients’ Needs      4                                                                                                                       2000
and Expectations.
      We met one of our four client satisfaction                                                                      3.50
goals. The client satisfaction goal to establish       3                                                                      3.22
                                                                                                                                                     3.19
                                                                                                                                                             3.00
baseline data for project-by-project client survey
ratings for audits and evaluations was met as                                  2.60    2.67
                                                                                               2.50
baseline data was accumulated to set future targets.   2
Average ratings received were 4 or greater on a
maximum scale of 5.
      As shown in the following table, we did not      1
meet our three goals to increase the 2000 client
satisfaction rating for our core mission activities
above the 1999 baseline level.                         0                                                        N/A                            N/A



                                                                                      Audits                     Evaluations                  Investigations


                                                       Note: No client satisfaction rating was given for evaluations in 1998. Also, for comparison purposes, ratings for 1998 and 1999
                                                       were recomputed using the 2000 numerical equivalent rating scale.

                                                                  The client ratings, displayed graphically in               whether the OIG possesses the requisite skill
                                                           the table above, reflect the views of FDIC                        sets for certain projects. On a more positive
                                                           Division and Office Directors as presented in                     note, reports were generally considered well
                                                           our recent third annual client survey report for                  written and improvements were noted with
                                                           2000, conducted by an independent contractor.                     respect to audit timeliness.
                                                           The report suggests that lowered ratings for
                                                                                                                                   Evaluations: The goal for evaluations was
                                                           our core mission activities are due in part to
                                                                                                                             not met with the rating decreasing to 3.22
                                                           communication concerns (See separate
                                                                                                                             (from 3.50 the previous year). Some
                                                           Strategic Goal: Communicating Effectively with
                                                                                                                             improvements are still needed in better
                                                           the Chairman, the Congress, and other
                                                                                                                             understanding the nature of evaluation work
                                                           Stakeholders). This year we expanded our
                                                                                                                             and congressional relations. However, nearly all
                                                           client feedback to include baseline information
                                                                                                                             knowledgeable FDIC executives were generally
                                                           on the views of two additional client group
                                                                                                                             positive about most aspects of the evaluation
                                                           tiers: (1) FDIC headquarters executives and
                                                                                                                             work.
                                                           managers immediately below the director level
                                                           and (2) regional office executives and                                  Investigations: The client satisfaction goal
                                                           managers knowledgeable of OIG work. Since                         for investigations was not met with the rating
                                                           this was the first year for the additional layers                 decreasing to 3.00 (from 3.19 the previous
                                                           of feedback, specific goals were not                              year). Concerns were expressed related to the
                                                           established for the new client tiers. Results                     continued desire for more open communi-
                                                           from all three client groupings contained                         cations including being kept apprised of the
                                                           common themes.                                                    status of cases. However, FDIC executives
                                                                                                                             indicated more knowledge of investigative
                                                                Comments and concerns from the client
                                                                                                                             work, and their comments were generally more
                                                           survey report specific to each core mission
                                                                                                                             favorable than the previous year. The sharing of
                                                           area are shown below.
                                                                                                                             information and collaborative attitude of the
                                                                 Audits: The goal was not met with the                       investigative staff were viewed positively,
                                                           rating decreasing to 2.50 (from 2.67 the                          particularly the memoranda of understanding
                                                           previous year). Concerns were expressed about                     recently signed with two FDIC divisions.
                                                           the value and cost-benefit of certain audit
                                                                                                                                  We have initiated actions to address the
                                                           products, the intrusiveness of audit work, and
                                                                                                                             areas of concern noted in the client survey.                47
     Relevance - Targeting High-Risk Areas and Corporate Strategic Priorities
     As shown in the following graphs, all three “relevance” goals were met or substantially met.



          Percentage of Initiated Audits and                            2000 Target                  Percentage of “Relevant” Audits2                             2000 Target
          Evaluations Relating to High-Risk Areas2                                                   as of December 31, 2000
                                                                        2000 Actual                                                                               2000 Actual
          as of December 31, 2000
         100%                                                                                       100%

                                                                                                                                              90%
                                                86%
         80%                                                                                        80%

                     70%                  70%                        70%                                                             70%
         60%                                                               65%                      60%
                           61%



         40%                                                                                        40%


         20%                                                                                        20%


          0%                                                                                         0%
                      Audits             Evaluations                Combined




                                                       Percentage of New Investigative Cases                       2000 Target
                                                       Relating to High-Risk Areas                                 2000 Actual
                                                       as of December 31, 2000
                                                       50%                                   52%



                                                       40%                            40%



                                                       30%


                                                       20%


                                                       10%


                                                       0%




     Quality - Complying with Professional Standards
           The goal to implement a quality scoring methodology for the Office of
     Audits and the Office of Congressional Relations and Evaluations and set
     future targets was met. The Office of Investigations’ goal to conduct
     operational reviews every 12 months in regional offices was also met.


     2
      The determination of high-risk areas is made by the OIG. Audits were considered relevant if they were initiated under the OIG’s Audit Plan and related directly to an FDIC
     strategic objective or a corporate request.

48
Impact/Results - Products Achieve Significant Impact or Results
Two impact goals were met, as shown in the following graphs.



   Percentage of Recommendations Agreed to by                     2000 Target                 Percentage of Closed Cases Resulting in      2000 Target
   Management Within 180 Days of Report Issuance                  2000 Actual                 Criminal, Civil, or Administrative Actions   2000 Actual
   as of December 31, 2000                                                                    as of December 31, 2000
100%                                                                                        100%
                                            100%                  98%
              95% 97%                 95%                  95%

 80%                                                                                         80%


 60%                                                                                         60%                              60%


                                                                                                                        45%
 40%                                                                                         40%


  20%                                                                                        20%


   0%                                                                                         0%
               Audits                Evaluations          Combined




      A third impact goal related to reviewing and             Our 1999 Performance Report also noted that
improving the accuracy and meaningfulness of             our Semiannual Reports to the Congress present
investigative information was also met.                  results that have had a significant positive impact on
                                                         the operations of the FDIC. The semiannual reports
      Our 1999 Performance Report noted the              present various measures specified in the Inspector
inherent difficulty in measuring the impact of audit,    General Act including questioned costs and funds
evaluation, and investigative work. These challenges     put to better use; fines, restitution, and monetary
include: accurately measuring cost savings from          recoveries resulting from OIG investigations; and
work; quantifying the impact of various OIG              nonmonetary recommendations. We did not make
prevention activities, including the value of improved   an analysis of these types of measures.
internal controls resulting from OIG work; and
measuring the deterrent value of OIG investigative
work.
      Our 1999 report noted we would explore
better measures of OIG impact including research to
evaluate the merits of measurement practices and
models that exist in other audit and law enforcement
organizations. In this vein, an analysis of
performance measures used by other OIGs was
made available for consideration in updating the
OIG’s 2001 measures and goals. More extensive
analysis will be made as a part of the process to
update our Strategic Plan in 2001.




                                                                                                                                                         49
     Productivity - Managing Resources to Maximize Productivity
     As shown in the following graphs, all four productivity goals were met or substantially met in 2000.


        Audit Products Issued                                           2000 Target                  Evaluation Products Issued                  2000 Target
        through December 31, 2000                                                                    through December 31, 2000
                                                                        2000 Actual                                                              2000 Actual

       Number of Reports                                                                             Number of Reports
       80                                                                                            16
                                                                                                                                       16
                                        75      74

       60                                                                                            12

                                                                                                                                 10
       40                                                                                             8


       20                                                                                             4


        0                                                                                             0




        Percentage of Evaluation Projects                               2000 Target                 Number of Completed Cases per Investigator   2000 Target
        Completed Within “Staff Day” Estimates                                                      through December 31, 2000
                                                                        2000 Actual                                                              2000 Actual
        as of December 31, 2000
      100%
                                                                                                    2.0                          2.0
                                                                                                                                       2.1
                                                88%
       80%
                                                                                                    1.5
                                        70%
       60%
                                                                                                    1.0

       40%
                                                                                                    0.5

       20%
                                                                                                     0

        0%




50
Timeliness - Issuing reports timely.
Three of the five timeliness goals were met or substantially met; two goals were not met.



  Percentage of Reports Issued Within                                  2000 Target                     Percentage of Pending Investigative Cases                         2000 Target
  Established Timeframes                                               2000 Actual                     Less Than 2 Years Old                                             2000 Actual
  as of December 31, 2000                                                                              as of December 31, 2000
100%                                                                                                100%
                                                                   100%
                                                            95%           98%
                                  92%                 90%
 80%                                                                                                  80%
             80%                         80%
                                               75%
                            70%                                                                                                           70%
 60%                                                                                                 60%
                                                                                                                                                  59%


 40%               41%                                                                               40%



 20%                                                                                                  20%


  0%                                                                                                   0%
             Audits 1       Audits 2    Evaluations   Invest 1      Invest 2



As shown in the first graph above:                                • Invest 1/Invest 2 - We substantially met the                 As shown in the second graph above:
                                                                    investigative goal that, upon completion of cases,                  We did not meet our goal that at least 70
• Audits 1 - We did not meet our goal to issue 80
                                                                    90 percent of Reports of Investigation are issued            percent of pending investigative cases are less than
  percent of audit reports within 320 days (for
                                                                    within 30 working days and 100 percent of                    2 years of age. Actual performance was 59 percent
  projects initiated before January 1, 2000). Actual
                                                                    Reports of Investigation are issued within 60                (79 out of 135 cases). Our investigative caseload
  performance was 41 percent (16 of 39 reports).
                                                                    working days. Actual performance was 95                      continues to grow in complexity, creating competing
  Factors contributing to not reaching the goal were
                                                                    percent for reports issued within 30 days (53 of             priorities. Ongoing major investigations involving
  that we issued three audit reports resulting from
                                                                    56 reports) and 98 percent for reports issued                open and closed bank fraud are taking longer to
  one assignment which took 508 calendar days to
                                                                    within 60 days (55 of 56 reports).                           complete due to their complexity and resulting
  complete, and we issued a comprehensive report
  on Y2K. Also, we issued a report on the                                                                                        criminal prosecutions. However, we continue to track
  Corporate Human Resources Information System.                                                                                  the progress of the older cases and close them as
  The length of time it takes to complete these                                                                                  appropriate.
  types of audits correlates to the time it takes to
  develop the system, which necessarily requires a
  lengthier audit period.

• Audits 2 - We met our goal to issue 70 percent of
  audit reports within 260 days (for projects
  initiated on or after January 1, 2000). Actual
  performance was 92 percent (11 of 12 reports).

• Evaluations - We substantially met our goal to
  issue 80 percent of evaluation reports within
  agreed-upon time frames with management or
  180 days. Actual performance was 75 percent
  (12 of 16 reports). It should also be noted that
  the median time frame for issuing the 16
  evaluation reports was 143 days.


                                                                                                                                                                                        51
     STRATEGIC GOAL: OIG Professional                          and office management; clarifying investigative role
     Advice Assists Corporation                                in open bank investigations; providing management
                                                               with “lessons learned - Keystone;” Office of
           All four performance goals in this strategic
                                                               Investigations preparation of training module for
     goal area were met. Two goals related to emerging
                                                               upcoming “Commissioned Examiner Seminar;”
     issues and task forces and two goals related to
                                                               coordination on additional debt/restitution
     vulnerabilities and risks.
                                                               investigative cases; diversity and equal employment
     Emerging Issues and Task Forces                           opportunity activities; Alternative Dispute Resolution
                                                               Taskforce; “Counterparts” group; and the
            Emerging Issues - Emerging issues with which       Chairman’s Diversity Advisory Council.
     the OIG was actively involved during the year
     included: a collaborative effort with the U.S. General    Advising on Vulnerabilities and Risks
     Accounting Office (GAO) to sanction the FDIC’s
                                                                     Regulatory and Legislative Proposals and
     digital signature public key infrastructure; testing of
                                                               Corporate Policies - As shown in the graph below,
     GENESYS encryption software; continuous audit
                                                               we met our goal for reviewing and analyzing
     activity associated with the 2000 financial statement
                                                               regulatory or legislative proposals and proposed
     audit with GAO; privacy review involving sensitive
                                                               corporate policies and providing advisory comments
     employee information; quick-turnaround review and
                                                               to management.
     analysis of the Corporation’s Results Act 1999
     Performance Report for Senator Fred Thompson;                   Corporate Internal Control Process - We also
     and assisting with the Corporation’s initiative to        met our goal to review and report timely on the
     increase the efficiency of its administrative             adequacy of the Corporation’s annual internal
     processes.                                                control evaluation and the Chief Financial Officers
                                                               Act reporting process by providing the Inspector
             Task Forces - In order to bring the OIG’s
                                                               General’s “Comfort Letter” to the Chairman.
     perspectives into the planning and design of critical
     corporate processes and activities, we participated
     in a number of FDIC task forces and related
     initiatives involving: Asset Loss Reserve project;        Percentage of Policies Reviewed and Legislative                 2000 Target
     Public Key Infrastructure Project team;                   Proposals Analyzed Within Requested Timeframes                  2000 Actual
     telecommunications; digital copiers; document             as of December 31, 2000
     security; study on use of corporate overtime;             100%                                                     100%
     emergency action planning for headquarters                                          95%   97%              95%
     employees; investigative coordination with division
                                                                80%


                                                                60%


                                                                40%


                                                                20%


                                                                 0%
                                                                                         Policies               Legislation




52
STRATEGIC GOAL: Communicating                                   Although the communication goal was met,
Effectively with the Chairman, the                        the ratings have leveled off and are not as high as
Congress, and Other Stakeholders                          desired. Survey results suggest the need for more
                                                          direct personal interaction of OIG executives with the
      We met or substantially met 10 of the 11            Corporation (particularly those OIG executives in
goals relating to informing clients of the OIG’s role,    charge of core mission functions, reporting directly
mission, and activities; responding to client requests    to the Inspector General). Also, the OIG’s unique
and inquiries; and working with other agencies on         reporting relationship and communication processes
crosscutting issues.                                      with the Congress need to be better understood by
Ensuring Clients are Informed of OIG Role,                the Corporation.
Mission, Activities, Issues, and Deficiencies                    Providing Information to Clients - Three goals
      Client Satisfaction - As shown in the first table   related to providing the following reports and
below, the goal to increase the level of client           information to clients were met: Semiannual Report
satisfaction with OIG communication efforts above         to the Congress and Annual Performance Plan
the 1999 baseline rating was met. (Note: For              distributed to stakeholders; Audit Plan briefings to
comparison purposes, ratings for 1998 and 1999            management; and Weekly Highlights reports made
were recomputed using the 2000 numerical                  to the Chairman.
equivalent rating scale.)



  OIG Communication Efforts                                            1998                    Level of Understanding of OIG                      1998
                                                                       1999                                                                       1999
  Customer Satisfaction Rating                                         2000                   Customer Satisfaction Rating                        2000

   4                                                                                            4
                                                                                                                                    3.74
                                                                                                                                           3.57

   3                                                                                            3                            3.01

                                         2.62     2.69

   2                                                                                            2


                                 1.26
   1                                                                                            1


   0                                                                                            0




                                                                                                                                                         53
     Responding to Congressional, Employee, and
     Public Inquiries and Requests                          Met
                                                             Hotline Complaints Referral Time          2000 Goal = 15 days or
           Hotline Complaints and Freedom of Information      as of December 31, 2000                  less
     Act and Privacy Act (FOIA/PA) Requests - The OIG’s     Number of Days                             2000 Actual
     goal regarding its average referral time for hotline    15                         15
     complaints was met. The target for timely response
                                                                                              12
     to FOIA/PA requests was not met due to an
                                                             10
     unexpected volume of work for several requests;
     tracking will be enhanced to identify requests for
     which extensions are needed.                             5


                                                              0




                                                            Not Met
                                                              Percentage of FOIA/PA Requests                         2000 Target
                                                              Responded to Within 20 Days of Receipt                 2000 Actual
                                                              as of December 31, 2000
                                                            100%
                                                                                        95%

                                                             80%
                                                                                              74%

                                                             60%


                                                             40%


                                                             20%


                                                              0%




54
      Chairman and Congressional Requests - As              Percentage of Chairman and Congressional   2000 Target
shown in the following graph, the OIG substantially         Requests Acknowledged Within 10 Days of    2000 Actual
met its goal to timely acknowledge and track the            Receipt as of December 31, 2000
resolution of all requests from the Chairman’s Office      100%
or from the Congress. The median response time for
acknowledgment was 7 days.
                                                           80%                    80%
      Access to Reports - Our goal to provide access                                    75%
to audit reports, evaluation reports, and press
                                                           60%
releases was substantially met. All of our 2000 audit
reports and press releases were provided to the
FDIC Public Information Center and the OIG                 40%
Webmaster in a timely manner under our OIG policy.
However, due to an oversight, some evaluation
                                                           20%
reports were not released to the Public Information
Center within the timeframes required by policy.
                                                            0%
Working with PCIE and Other Government
Agencies to Address Crosscutting Issues
       We met our goals to actively support the
activities of the President’s Council on Integrity and
Efficiency (PCIE), to share information with the FDIC
and other agencies, and to complete an external
peer review of the Department of Justice OIG. The
FDIC Inspector General continues to serve as PCIE
Vice Chair and, in this capacity, provides leadership
on a wide variety of interagency activities. Significant
OIG activities in 2000 in support of these goals
include: the Inspector General is participating on the
committee to update Government Auditing
Standards; PCIE Annual Report to the President;
PCIE/ECIE Strategic Plan development; enhancing
the usefulness of IGNet to its members and the
public; contributing to the special edition of the PCIE
Journal of Public Inquiry; providing comments to the
PCIE on draft legislation; providing staff support to
the Federal Law Enforcement Training Center to
support the government’s OIG training program;
participating in various OIG groups including Council
of Counsels to the Inspectors General, PCIE
inspection and evaluation roundtable, Directors of
Investigation, and GPRA coordinators roundtable;
and making presentations at a variety of training
conferences attended by auditing, law enforcement,
banking, and regulatory officials.




                                                                                                                     55
     Resource Management Goals                                      Five resource management goals were not met
                                                              although significant progress has been made on
            In addition to the strategic goals, the OIG has   most of them by year-end.
     adopted an operating principle that commits the OIG
     to the effective management of resources related to      • Develop New Quality Assurance Approach - A
     staffing, information technology, professional             general conceptual framework has been
     standards and internal controls, communications,           established for future quality assurance reviews
     legal advice, and administrative services.                 (QARs) whereby the OIG’s Office of Quality
                                                                Assurance and Oversight will provide policy,
           We met or substantially met 24 of the 30             guidance, and oversight for QARs with operating
     goals (80 percent) in this area. These include goals       offices actually conducting the reviews. This new
     related to updating and completing training systems        approach will be further developed in 2001.
     and studies, developing an employee feedback
     assessment process, implementing learning                • Develop OIG Information Systems - Two
     organization action plans, completing internal quality     information systems were on the priorities list to
     assurance reviews, conducting risk assessments             be completed in 2000. The Counsel Workflow
     and internal control reviews, providing information        System was completed in 2000, but the Training
     systems and computer services to OIG staff,                Management System will not be completed until
     establishing an employee advisory group,                   2001 because of a later-than-planned start date.
     implementing operating principles for building trust,
     and providing legal advice and other administrative      • Develop Overall Communications Strategy - An
     and support services.                                      internal reporting communication policy for audits
                                                                was drafted and is currently being used. Work
                                                                will continue on an office-wide policy in 2001.

                                                              • Develop Strategy for Recruiting Diverse OIG
                                                                Workforce - A draft plan for recruiting a diverse
                                                                OIG workforce has been prepared and is under
                                                                review.

                                                              • Develop and Communicate OIG Policies - Several
                                                                audit, investigative, and quality assurance policies
                                                                planned for issuance in 2000 were delayed and
                                                                were rescheduled for completion in 2001.

                                                                    Sufficient information is not yet available to
                                                              determine whether the goal to increase the level of
                                                              internal customer satisfaction with OIG legal
                                                              services has been met.




56
Detail Listing of Annual Performance Goal Accomplishment
                       2000 Annual Performance Goal                                     Goal                  Goal
                        (By Strategic Goal Area and                               Accomplishment         Accomplishment
                         Strategic Objective Area)                                      2000                  1999
                                            Audits, Evaluations, and Investigations Add Value
Client Satisfaction
Increase the level of client satisfaction of audit work (to 2.8) above the 1999      Not met             Met
baseline level established by a general OIG client survey and set future
targets based on a general follow-up survey for 2000.

Increase the level of client satisfaction of evaluation work above the 1999          Not met             Met
baseline level established by a general OIG client survey and set future
targets based on a general follow-up survey for 2000.

Establish a 2000 baseline of client satisfaction and set future targets based        Met                 N/A
on project-by-project client surveys (including relevance, timeliness, and
impact) of individual audit and evaluation reports issued in 2000.

Maintain the level of client satisfaction of investigative work at the 1999          Not met             Met
baseline level but increase the number of executives having knowledge or
understanding of the Office of Investigations by 33 percent.
Relevance

70 percent of initiated audits and evaluations will relate to corporate activities   Substantially met   Met
that the OIG determines to be areas of high risk or vulnerability (including
potential for fraud or abuse), FDIC management request, or congressional inquiry.

At least 70 percent of the audits initiated under the OIG audit plan will relate     Met                 Not Met
directly to the FDIC’s strategic objectives or corporate requests.

40 percent of new cases will be related to criminal restitution and civil            Met                 Met
judgment, bankruptcy, or suspected fraud in open banks.

Quality

Implement a post-issuance quality scoring methodology for audit and                  Met                 Substantially met
evaluation reports and set future targets.

Conduct operational reviews every 12 months in each regional office and discuss      Met                 Substantially met
corrective issues identified with Office of Investigations field management.

Impact/Results

The OIG and FDIC management agree on an appropriate management decision              Met                 Met
on 95 percent of audit and evaluation recommendations within 180 days of
report issuance.

45 percent of the cases closed will result in either Reports of Investigation to     Met                 Substantially met
management, criminal convictions, civil actions, or a combination of these
elements.



                                                                                                                             57
     Detail Listing of Annual Performance Goal Accomplishment (continued)
                            2000 Annual Performance Goal                                        Goal                   Goal
                             (By Strategic Goal Area and                                  Accomplishment          Accomplishment
                              Strategic Objective Area)                                        2000                    1999
                                                 Audits, Evaluations, and Investigations Add Value
     Impact/Results (continued)
     Review and improve the accuracy and meaningfulness of investigative                      Met                 Not met
     information to establish trends and set future targets.
     Productivity
     Issue memoranda or reports on the results of 75 audits.                                  Substantially met   Not met
     Issue 10 reports or other reporting vehicles communicating the results of                Met                 Not met
     evaluations.
     Complete 70 percent of evaluation projects within “staff day” estimates.                 Met                 N/A
     The number of cases completed per investigator will be greater than two.                 Met                 Met
     Timeliness
     For projects initiated before January 1, 2000, issue 80 percent of audit reports         Not met             Substantially met
     within 320 calendar days.
     For projects initiated on or after January 1, 2000, issue 70 percent of audit            Met                 N/A
     reports within 260 calendar days.
     Issue 80 percent of evaluation reports within time frames agreed upon by the             Substantially met   Not Met
     Office of Congressional Relations and Evaluations and FDIC management or
     issue report within 180 calendar days if no time frame was agreed upon.
     At least 70 percent of pending cases will be less than 2 years of age.                   Not met             Met
     Issue 90 percent of Reports of Investigation within 30 days, and 100 percent of          Substantially met   Substantially met
     Reports of Investigation within 60 working days, after completion of the case.
                                                          Professional Advice Assists Corporation
     Advise on Emerging Issues and Vulnerabilities
     Conduct “front-end” assessments of emerging issues, new systems, or other              Met                   Met
     matters affecting the Corporation within time frames that are responsive to
     corporate needs.
     Participate in FDIC task forces developing new programs/processes if OIG               Met                   Met
     participation is appropriate and can add value.
     Review proposed corporate internal policies and respond to the Corporation and         Met                   Met
     analyze regulatory/legislative proposals within requested time frames 95
     percent of the time.
     Report within established time frames on the results of OIG’s review of the            Met                   Met
     Corporation’s annual Federal Managers’ Financial Integrity Act internal control review
     process, a process required for FDIC by the Chief Financial Officers Act of 1990.
                                                  Communicate Effectively with Clients/Stakeholders
     Inspector General Role/Activities; Inquiry Response; Interagency Issues
     Provide OIG Semiannual Reports, Annual Performance Plan, Annual Performance                Met               Met
     Report, and other information to and interact with the Congress and corporate officials.
     Brief FDIC management on Annual Audit Plan.                                                Met               Met

58
Detail Listing of Annual Performance Goal Accomplishment (continued)
                      2000 Annual Performance Goal                                    Goal                     Goal
                       (By Strategic Goal Area and                               Accomplishment           Accomplishment
                        Strategic Objective Area)                                     2000                     1999
                                           Communicate Effectively with Clients/Stakeholders
Inspector General Role/Activities; Inquiry Response; Interagency Issues (continued)
Produce and communicate weekly highlights report to the Chairman on                    Met                Met
significant OIG activities by the first working day following the week being featured.
Increase the level of client satisfaction of OIG communication efforts above the       Met                Met
1999 baseline level established by a general OIG client survey and establish
future targets based on a general follow-up survey for 2000.
Refer OIG Hotline complaints within an average of 15 working days of receipt to       Met                 Met
appropriate OIG or corporate officials for review and track their resolution.
Respond to 95 percent of FOIA/PA requests within 15 working days of receipt           Not met             Substantially met
unless deadline is extended in accordance with law, applicable regulation, or
OIG policy.
Acknowledge 80 percent of Chairman’s Office or congressional requests within          Substantially met   Not met
10 business days of receipt and track their resolution.
Provide audit reports, evaluation reports, and press releases to the FDIC Public      Substantially met   Substantially met
Information Center and the OIG Webmaster in accordance with policy.
Continue to actively participate in and support the activities of the President’s     Met                 Met
Council on Integrity and Efficiency.
Share information that could assist the FDIC, other OIGs, and other government        Met                 Met
agencies in public forums (i.e., professional conferences, round table
discussion, training courses, etc.), as requested.
Complete external peer review of the Department of Justice (DOJ) OIG within           Met                 N/A
date agreed to with DOJ OIG and within 90 days from start of fieldwork.




                                                                                                                              59
     Statistical Summary of Previous Year’s Performance – 1999 Annual Performance Goals
                                                                                                       Annual Goal Accomplishment
                                                                                                           (Number of Goals)
            Strategic Goal Areas                        Strategic Objectives
                                                               Areas                          Met       Substantially       Unmet        Total
                                                                                                           Met*

     Audits, Evaluations, and                   Client Satisfaction                            3                                          3
     Investigations Add Value                   Relevance                                      3             1               1            5
                                                Quality                                                      2                            2
                                                Impact/Results                                 2             1               2            5
                                                Productivity                                   1             1               2            4
                                                Timeliness                                     1             2               2            5
     Professional Advice Assists the            Advise on Emerging Issues and                  4                                          4
     Corporation                                Vulnerabilities
     OIG Communicates Effectively with          Inspector General Role/Activities,              7            2                 1          10
     Clients/Stakeholders                       Inquiry Response, Interagency Issues
     Total                                                                                     21            9                 8          38
     Percentage                                                                              55%           24%               21%         100%
     * A quantitative goal was considered “substantially met” if actual performance came within 10 percent of the target level of performance.




60
     Reporting Terms and
           Requirements

Index of Reporting Requirements - Inspector General Act of
1978, as amended
Reporting Requirement                                                          Page
Section 4(a)(2): Review of legislation and regulations                         39
Section 5(a)(1): Significant problems, abuses, and deficiencies                11-26
Section 5(a)(2): Recommendations with respect to significant
problems, abuses, and deficiencies                                             11-26
Section 5(a)(3): Recommendations described in previous semiannual
reports on which corrective action has not been completed                      63
Section 5(a)(4): Matters referred to prosecutive authorities                   27
Section 5(a)(5) and 6(b)(2): Summary of instances where requested
information was refused                                                        70
Section 5(a)(6): Listing of audit reports                                      67
Section 5(a)(7): Summary of particularly significant reports                   11-26
Section 5(a)(8): Statistical table showing the total number of audit
reports and the total dollar value of questioned costs                         69
Section 5(a)(9): Statistical table showing the total number of audit
reports and the total dollar value of recommendations that funds
be put to better use                                                           69
Section 5(a)(10): Audit recommendations more than 6 months old
for which no management decision has been made                                 70
Section 5(a)(11): Significant revised management decisions during
the current reporting period                                                   70
Section 5(a)(12): Significant management decisions with which the OIG disagreed 70




                                                                                       61
     Reader’s Guide to Inspector General                  Once management has disallowed a
     Act Reporting Terms                            cost and, in effect, sustained the auditor’s
                                                    questioned costs, the last step in the
     What Happens When Auditors Identify Monetary
                                                    process takes place which culminates in
     Benefits?Our experience has found that
                                                    the “final action.” As defined in the
     the reporting terminology outlined in the
                                                    Inspector General Act, final action is the
     Inspector General Act of 1978, as
                                                    completion of all actions that
     amended, often confuses people. To
                                                    management has determined, via the
     lessen such confusion and place these
                                                    management decision process, are
     terms in proper context, we present the
                                                    necessary to resolve the findings and
     following discussion:
                                                    recommendations included in an audit
          The Inspector General Act defines         report. In the case of disallowed costs,
     the terminology and establishes the            management will typically evaluate
     reporting requirements for the                 factors beyond the conditions in the
     identification and disposition of              audit report, such as qualitative
     questioned costs▼ in audit reports. To         judgements of value received or the cost
     understand how this process works, it is       to litigate, and decide whether it is in the
     helpful to know the key terms and how          Corporation’s best interest to pursue
     they relate to each other.                     recovery of the disallowed costs. The
          The first step in the process is when     Corporation is responsible for reporting
     the audit report identifying questioned        the disposition of the disallowed costs,
     costs▼ is issued to FDIC management.           the amounts recovered, and amounts not
     Auditors question costs because of an          recovered.
     alleged violation of a provision of a law,          Except for a few key differences, the
     regulation, contract, grant, cooperative       process for reports with recommenda-
     agreement, or other agreement or               tions that funds be put to better use is
     document governing the expenditure of          generally the same as the process for
     funds. In addition, a questioned cost may      reports with questioned costs. The audit
     be a finding in which, at the time of the      report recommends an action that will
     audit, a cost is not supported by              result in funds to be used more efficiently
     adequate documentation; or, a finding          rather than identifying amounts that may
     that the expenditure of funds for the          need to be eventually recovered.
     intended purpose is unnecessary or             Consequently, the management decisions
     unreasonable.                                  and final actions address the
          The next step in the process is for       implementation of the recommended
     FDIC management to make a decision             actions and not the disallowance or
     about the questioned costs. The                recovery of costs.
     Inspector General Act describes a
     “management decision” as the final
     decision issued by management after
     evaluation of the finding(s) and               _______________________
     recommendation(s) included in an audit         ▼
                                                      It is important to note that the OIG does not
     report, including actions deemed to be         always expect 100 percent recovery of all costs
     necessary. In the case of questioned           questioned.
     costs, this management decision must
     specifically address the questioned costs
     by either disallowing or not disallowing
     these costs. A “disallowed cost,”
     according to the Inspector General Act,
     is a questioned cost that management, in
     a management decision, has sustained or
     agreed should not be charged to the
     government.

62
                                                                                                 Appendix I:
                                                                                     Statistical Information
                    Required by the Inspector General Act of 1978,
                                                       as amended
Table I.1: Significant                                   Report Number,                     Significant      Brief Summary of Planned
Recommendations from Previous                            Title & Date                       Recommendation   Corrective Actions and
Semiannual Reports on Which                                                                 Number           Associated Monetary Amounts
Corrective Actions Have Not Been
Completed                                                Management Action In Process
This table shows the corrective actions management       98-090                          2, 4                Quantify the amount of overstated
has agreed to implement but has not completed,           Credit Enhancement Reserve Fund                     realized losses, unrecorded
along with associated monetary amounts. In some          for Securitization Transaction                      proceeds, corporate advances and
cases, these corrective actions are different from the   1993-03                                             refunds resulting from accounting
initial recommendations made in the audit reports.                                                           errors and request reimbursement
                                                         November 24, 1998                                   from NationsBanc, as successor
However, the OIG has agreed that the planned
actions meet the intent of the initial                                                                       to Boatmen.
recommendations. The information in this table is                                           10               Perform or contract for on-site
based on information supplied by the FDIC’s Office                                                           reviews of the servicer’s
of Internal Control Management (OICM). These 56                                                              supporting documentation of the
recommendations from 19 reports involve monetary                                                             realized losses for the single-
amounts of over $19.7 million. OICM has                                                                      family residential loan
categorized the status of these recommendations as                                                           securitization program.
follows:
                                                         99-027                             1                Disallow $331,672 for losses
Management Action in Process: (18                        Limited Scope Audit of Credit                       that were incurred and
recommendations from 7 reports, $1.6                     Enhancement Reserve Funds for                       negotiate a settlement
million)                                                 Securitization Transactions                         agreement to obtain restitution
Management is in the process of implementing the         1991-16 and 1992-05                                 for the losses related to Chapter
corrective action plan, which may include
                                                                                                             11 bankruptcy proceedings.
                                                         July 6, 1999
modifications to policies, procedures, systems or
controls; issues involving monetary collection; and      00-015                             2                Review the current policy
settlement negotiations in process.                                                                          regarding the cancellation and
                                                         Corporation’s Procurement and
Legal Analysis: (18 recommendations                      Travel Credit Card Programs                         reinstatement of credit cards to
from 9 reports, $7.1 million)                                                                                determine whether it is having
                                                         May 24, 2000                                        its intended effect, and revise
The Legal Division has been provided all necessary                                                           the policy accordingly.
documentation to perform a detailed review for legal
purposes. The Legal Division will be the final           00-021                             1, 2             Disallow $587,621 for
determinant for items so categorized.                    Audit of Payments to CIBER, Inc.                    unallowable charges and reiterate
                                                                                                             to CIBER that it must adhere to
Litigation: (20 recommendations from 3                   June 2, 2000                                        provisions of the General Services
reports, $11 million)                                                                                        Administration (GSA) contract and
Each case has been filed and is considered “in                                                               FDIC delivery orders.
litigation.” The Legal Division will be the final                                           10               Reiterate to CIBER that it is
determinant for all items so categorized.                                                                    responsible for advising the
                                                                                                             Contracting Officer of proposed
                                                                                                             changes in key personnel, that
                                                                                                             exemptions from sales taxes
                                                                                                             should be obtained, and
                                                                                                             supervisory review and approval
                                                                                                             of time sheets is a necessary
                                                                                                             internal control.

                                                                                            12               Ensure that the FDIC operates
                                                                                                             within the scope of the GSA
                                                                                                             contract requirements when
                                                                                                             issuing delivery orders.

                                                                                                                                                  63
      Table I.1: Significant Recommendations from
      Previous Semiannual Reports on Which
      Corrective Actions Have Not Been Completed



      Report Number,                                                  Significant       Brief Summary of Planned
      Title & Date                                                    Recommendation    Corrective Actions and
                                                                      Number            Associated Monetary Amounts
      Management Action in Process (continued)
      00-026                                                          1                Improve guidance provided to examiners for consistent
                                                                                       examination procedures and reports.
      Division of Compliance and Consumer Affairs’
      Community Reinvestment Act Examination Process                  3                Improve the policy with respect to community contacts.
      July 7, 2000                                                    4                Improve the policy with respect to the scope of small
                                                                                       business/farm reviews.
                                                                      5                Improve the guidelines for quality assurance reviews of
                                                                                       performance evaluation reports.

                                                                      6                Improve the documentation for quality assurance reviews
                                                                                       of performance evaluation reports.
                                                                      7                Improve the minimum work paper standards.
      00-036                                                          1                Disallow questioned costs of $260,259 for unallowable
      Payments to COMSO, Inc.                                                          charges.
      August 29, 2000

      00-040                                                          3                Disallow $183,100 for overpaid claims.
      FDIC Health Benefits Program Administered by
                                                                                       Disallow $197,104 for overpaid claims not
      Aetna U.S. Healthcare                                           4
                                                                                       collected as contractually required.
      September 6, 2000

      Legal Analysis
      00-024                                                          1,2              Disallow $230,678 in questioned costs for unsupported
      Review of the Claims Made to the Credit Enhancement             1,2              and unallowable costs related to liquidation expenses,
      Reserve Fund for Securitization Transaction 1991-03*                             principal and interest advances, and escrow
                                                                                       disbursements.
      July 6, 2000

      00-028                                                          1,2              Disallow $1,350,837 in questioned costs for unsupported
      Review of the Claims Made to the Credit Enhancement                              and unallowable costs related to liquidation expenses,
      Reserve Fund for Securitization Transaction 1991-09*                             principal and interest advances, and escrow
                                                                                       disbursements.
      July 21, 2000
     * Completion of management action scheduled for June 30, 2001.




64
 Table I.1: Significant Recommendations from
 Previous Semiannual Reports on Which
 Corrective Actions Have Not Been Completed



 Report Number,                                                  Significant       Brief Summary of Planned
 Title & Date                                                    Recommendation    Corrective Actions and
                                                                 Number            Associated Monetary Amounts
 Legal Analysis (continued)
 00-029                                                          1, 2             Disallow $401,684 in questioned costs for unsupported
 Review of the Claims Made to the Credit Enhancement                              and unallowable costs related to liquidation expenses,
 Reserve Fund for Securitization Transaction 1991-15*                             principal and interest advances, and escrow
                                                                                  disbursements.
 July 21, 2000
 00-031                                                          1, 2             Disallow $665,025 in questioned costs for unsupported
 Review of the Claims Made to the Credit Enhancement                              and unallowable costs related to liquidation expenses,
 Reserve Fund for Securitization Transaction 1991-07*                             principal and interest advances, and escrow
                                                                                  disbursements.
 August 3, 2000
 00-032                                                          1, 2             Disallow $559,462 in questioned costs for unsupported
 Review of the Claims Made to the Credit Enhancement                              and unallowable costs related to liquidation expenses,
 Reserve Fund for Securitization Transaction 1992-01*                             principal and interest advances, and escrow
                                                                                  disbursements.
 July 6, 2000
 00-034                                                          1, 2             Disallow $1,443,836 in questioned costs for unsupported
 Review of the Claims Made to the Credit Enhancement                              and unallowable costs related to liquidation expenses,
 Reserve Fund for Securitization Transaction 1991-01                              principal and interest advances, and escrow
                                                                                  disbursements.
 August 21, 2000
 00-035                                                          1, 2             Disallow $878,574 in questioned costs for unsupported
 Review of the Claims Made to the Credit Enhancement                              and unallowable costs related to liquidation expenses,
 Reserve Fund for Securitization Transaction 1991-12*                             principal and interest advances, and escrow
                                                                                  disbursements.
 August 21, 2000
 00-041                                                          1, 2             Disallow $837,696 in questioned costs for unsupported
 Review of the Claims Made to the Credit Enhancement                              and unallowable costs related to liquidation expenses,
 Reserve Fund for Securitization Transaction 1992-04*                             principal and interest advances, and escrow
                                                                                  disbursements.
 September 8, 2000
 00-044                                                          1, 2             Disallow $765,827 in questioned costs for unsupported
 Review of the Claims Made to the Credit Enhancement                              and unallowable costs related to liquidation expenses,
 Reserve Fund for Securitization Transaction 1992-03*                             principal and interest advances, and escrow
                                                                                  disbursements.
 September 20, 2000

* Completion of management action scheduled for June 30, 2001.




                                                                                                                                            65
     Table I.1: Significant Recommendations from
     Previous Semiannual Reports on Which
     Corrective Actions Have Not Been Completed



     Report Number,                                     Significant       Brief Summary of Planned
     Title & Date                                       Recommendation    Corrective Actions and
                                                        Number            Associated Monetary Amounts
     Litigation
     95-032                                             5                Recover $5,259,285 from the association for
     Local America Bank, F.S.B., Assistance Agreement                    noncompliance with the tax benefits provisions of the
                                                                         assistance agreement.
     March 24, 1995
     96-014                                             1, 4-16          Recover $4,526,389 of assistance paid to Superior Bank.
     Superior Bank, F.S.B. Assistance Agreement,
     Case Number C-389c
     February 16, 1996
     98-026                                             2, 3, 4, 6       Recover $1,220,470 of assistance paid to Superior Bank.
     Assistance Agreement Audit of Superior Bank,       11               Compute the effect of understated Special Reserve
     Case Number C-389c                                                  Account for Payments in Lieu of Taxes and remit any
     March 9, 1998                                                       amounts due to the FDIC.




66
 Table I.2: Audit Reports Issued by Subject Area



                                                                                                                                               Funds Put to
                                     Audit Report                                                                   Questioned Costs           Better Use
 Number & Date                    Title                                                                       Total         Unsupported
 Supervision (Safety and Soundness)
 01-010                 FDIC’s Timeliness of Processing Applications
 March 23, 2001         for Deposit Insurance

 01-013                           Examination Assessment of Bank Secrecy Act
 March 30, 2001                   Compliance

 01-016                           DOS’s Use of Expanded and Impact
 March 30, 2001                   Examination Procedures in the Risk-Focused
                                  Examination Process
 Receivership Management
 00-047              American Pension Management’s                                                          $1,724,213            $1,722,213
 October 19, 2000    Administration of Employee Benefit Plans for
                     Failed Financial Institutions
 00-046                           Tax Returns for Northeast Service Center
 October 31, 2000                 Dissolved Subsidiaries

 00-050                           Real Estate Owned by the Federal Deposit                                                                     $55,200 *
 December 18, 2000                Insurance Corporation and Its Receivership
                                  and Subsidiaries

 00-051                           Receivership Liability System - Staffing and
 December 28, 2000                Training

 01-008                           Claims Made to the Credit Enhancement                                     $441,764                $40,455
 March 8, 2001                    Reserve Funds for Securitization Transactions
                                  1992-03 and 1992-04

 01-009                           Securitization Transactions Serviced by PNC                               $96,359
 March 8, 2001                    Mortgage: Audit of Duplicate Principal and
                                  Interest Advances
 Corporate Support - Information Security and Infrastructure
 00-049                           FDIC’s Computer Virus Protection Program
 December 6, 2000

 01-007                           FDIC’s Information Technology Risk                                                                           $2,200,000
 March 14, 2001                   Management Program

* Report 00-050 identified $1.9 million in funds to be put to better use. Based on updated information, we revised the amount to $55,200.




                                                                                                                                                              67
     Table I.2: Audit Reports Issued by Subject Area




                                                                                                             Funds Put to
                               Audit Report                                           Questioned Costs       Better Use
     Number & Date          Title                                               Total         Unsupported
     Corporate Support - Other Activities
     00-048                QSS Group’s Billings to the FDIC for Information      $2,305,507
     November 14, 2000     Technology Services

     01-001                The Ratcliff Architects’ Professional Fee Billings    $76,009        $8,737
     January 10, 2001      Under Contract 97-00384-S-JW

     01-002                Billings for Professional Services Provided by ACS    $1,064,364
     January 11, 2001      Government Solutions Group

     01-003                Implementation of Release I of the Corporate Human
     January 24, 2001      Resources Information System

     01-004                Contractor Background Investigation Process
     February 1, 2001

     01-005                Use of Overtime Within the FDIC
     February 6, 2001

     01-006                FDIC’s Application Maintenance Budgets
     February 12, 2001

     01-012                Controls over the FDIC’s Laptop Computer Inventory
     March 28, 2001

     01-014                Semiannual Report of FDIC Board Members’ Travel
     March 29, 2001        Voucher Reviews - September 2000 to February 2001

     01-015                FDIC’s Compliance With 26 CFR 1.6050 M-1
     March 30, 2001

     TOTALS FOR THE PERIOD                                                       $5,708,216     $1,771,405   $2,255,200




68
 Table I.3: Audit Reports Issued with Questioned Costs



                                                                                     Number                                            Questioned Costs
                                                                                                                           Total                    Unsupported
 A. For which no management decision has been made
    by the commencement of the reporting period.                                         0                             0                                       0
 B. Which were issued during the reporting period.                                       6                             $5,708,216                              $1,771,405
 Subtotals of A & B                                                                      6                             $5,708,216                              $1,771,405
 C. For which a management decision was made during
    the reporting period.                                                                6                             $5,708,216                              $1,771,405
    (i) dollar value of disallowed costs.                                                6                             $5,708,216                              $1,771,405
    (ii) dollar value of costs not disallowed.                                           0                             0                                       0
 D. For which no management decision has been made
    by the end of the reporting period.                                                  0                             0                                       0
    Reports for which no management decision was made
    within 6 months of issuance.                                                         0                             0                                       0




 Table I.4: Audit Reports Issued with
 Recommendations for Better Use of Funds



                                                                                                                         Number                                    Dollar Value
 A. For which no management decision has been made by the commencement
    of the reporting period.                                                                                           0                                           0
 B. Which were issued during the reporting period.                                                                     2                                           $2,255,200 *
 Subtotals of A & B                                                                                                    2                                           $2,255,200
 C. For which a management decision was made during the reporting period.                                              2                                           $2,255,200
    (i) dollar value of recommendations that were agreed to by management.                                             2                                           $2,255,200
        - based on proposed management action.                                                                         2                                           $2,255,200
        - based on proposed legislative action.                                                                        0                                           0
    (ii) dollar value of recommendations that were not agreed to by
         management.                                                                                                   0                                           0
 D. For which no management decision has been made by the end of the
    reporting period.                                                                                                  0                                           0
    Reports for which no management decision was made within 6 months of
    issuance.                                                                                                          0                                           0

* Report 01-007 identified funds to be put to better use of $2.2 million over 3 years. The yearly benefit amounts to $733,333 for the first and second year, and $733,334 for the third year.
  Report 00-050 identified $1.9 million in funds to be put to better use. Based on updated information, we revised the amount to $55,200.




                                                                                                                                                                                                69
     Table I.5: Status of OIG Recommendations Without Management Decisions
     During this reporting period, there were no recommendations without management decisions.


     Table I.6: Significant Revised Management Decisions
     During this reporting period, there were no significant revised management decisions.


     Table I.7: Significant Management Decisions with Which the OIG Disagreed
     During this reporting period, there were no significant management decisions with which the OIG disagreed.


     Table I.8: Instances Where Information Was Refused
     During this reporting period, there were no instances where information was refused.




70
                                           Appendix II:
         Products Issued by the Office of Congressional
                             Relations and Evaluations


Product Number          Title
and Date
Evaluation Reports
EVAL-00-006             FDIC’s Information Handling Practices for Sensitive Employee Data
October 11, 2000
EVAL-00-007             MCI Voice and Video Contract - Contract Monitoring
December 29, 2000

EVAL-01-001             Processes Used to Verify and Validate Government Performance and Results Act Performance Data
February 21, 2001

Evaluation Memoranda
EM-00-003               Observations on FDIC’s GPRA Performance Report Verification and Validation Descriptions
October 24, 2000
EM-00-004               Networked Digital Copiers
November 8, 2000

EM-01-001               Study of Administrative Services - Training and Personnel
March 1, 2001

EM-01-002               Allegation of Overpayment of Gross-up Taxes
March 29, 2001

Congressional Letters
CL-01-001               Letter to Congressman Walter B. Jones on Behalf of Shirley L. Mays
January 23, 2001




                                                                                                                        71
     Abbreviations and Acronyms
                          ABA ..................American Bankers Association
                          ACS ..................ACS Government Solutions Group
                          ADR ..................Alternative Dispute Resolution
                          APM ..................American Pension Management
                          BIF ....................Bank Insurance Fund
                          BOA ..................Bank of America
                          BSA ..................Bank Secrecy Act
                          CD ....................Certificate of Deposit
                          CHRIS ................Corporate Human Resources Information System
                          CPA ..................Certified Public Accountant
                          CRA ..................Community Reinvestment Act
                          CTR ..................Currency Transaction Report
                          DCA ..................Division of Compliance and Consumer Affairs
                          DFOB ................Dallas Field Operations Branch
                          DIRM ................Division of Information Resources Management
                          DOF ..................Division of Finance
                          DOS ..................Division of Supervision
                          DRR ..................Division of Resolutions and Receiverships
                          ECIE ..................Executive Council on Integrity and Efficiency
                          ED ....................Examination Documentation
                          FBI ....................Federal Bureau of Investigation
                          FFIEC ................Federal Financial Institutions Examination Council
                          FDIC ..................Federal Deposit Insurance Corporation
                          FSS ..................Federal Supply Schedule
                          GAO ..................U.S. General Accounting Office
                          GSA ..................General Services Administration
                          HHS ..................Department of Health and Human Services
                          INNOLOG ............Innovative Logistics Techniques, Inc.
                          IRS ....................Internal Revenue Service
                          ISR ....................Independent Security Review
                          IT ......................Information Technology
                          MCI ..................MCI WorldCom, Inc.
                          MWSB................Murphy-Wall State Bank
                          OFAC ................Office of Foreign Assets Control
                          OI ......................Office of Investigations
                          OICM ................Office of Internal Control Management
                          OIG ....................Office of Inspector General
                          OMB ..................Office of Management and Budget
                          PCIE ..................President’s Council on Integrity and Efficiency
                          PNC ..................PNC Mortgage
                          Results Act ........Government Performance and Results Act
                          RLS ..................Receivership Liability System
                          RTC ..................Resolution Trust Corporation
                          SAIF ..................Savings Association Insurance Fund
                          SAR ..................Suspicious Activity Report


72
Of Special Interest
      The Inspector General community              Finally, a special edition of the
has published three issues of the Journal     Journal addressed important issues and
of Public Inquiry that may interest           challenges facing the new administration,
readers of this semiannual report. The        as seen from the vantage point of the
first special issue focused on past work of   Inspectors General (Fall/Winter 2000).
the Inspector General community that              If you are interested in receiving
has contributed to improved                   copies of these publications, please
effectiveness, efficiency, and integrity in   contact us at (202) 416-4255.
government programs and operations
(Spring/Summer 2000).
    The second issue focused on a
current government-wide priority—
Human Capital—and offered perspectives
on the federal workforce and the
importance of developing the human
capital of the Inspector General
community (Fall/Winter 2000).




                                                                                          73
     Congratulations and Farewell
     The OIG acknowledges the distinguished federal careers of the following individuals
     who retired during the reporting period:




                                                        Dana Bedwell, Special Agent in
                                                        Charge, Atlanta Field Office of
                                                        Investigations, Atlanta, Georgia:
         Steven A. Switzer, Deputy                      32-year career in law
                                                                                            Edward Sobota, Audit
         Inspector General for Audits: 34               enforcement, including 21 with
                                                                                            Specialist, Washington, D.C.:
         years of federal service, most of              the federal government.
                                                                                            15 years of service with the
         which was spent in the                                                             FDIC.
         Inspector General community.




                                                        Lorin Wiseman, Senior
                                                        Investigator, Washington, D.C.:
         Shirley Ward, Regional Director                28-year federal career, 16 years    Hank Smith, Senior Management
         for Audits, Dallas, Texas: 33                  with the FDIC.                      Analyst, Washington, D.C.: 32
         years of federal service.                                                          years of federal service, 29 of
                                                                                            which were spent at the FDIC.



                                      The OIG thanks these individuals for their
                                      service to the American people and wishes
                                             them all a happy retirement.

74
The Office of Inspector General (OIG) Hotline is a convenient mechanism employees, contractors,
and others can use to report instances of suspected fraud, waste, abuse and mismanagement within
 the FDIC and its contractor operations. The OIG maintains a toll-free, nationwide Hotline (1-800-
964-FDIC), electronic mail address (IGhotline@FDIC.gov), and postal mailing address. The Hotline
   is designed to make it easy for employees and contractors to join with the OIG in its efforts to
prevent fraud, waste, abuse, and mismanagement that could threaten the success of FDIC programs
                                           or operations.




                                                                                                      75
Design by FDIC/DOA/ACSB/Design & Printing Unit
